<html>
<title> - RECOVERY ACT: PROGRESS REPORT FOR INFRASTRUCTURE INVESTMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
      RECOVERY ACT: PROGRESS REPORT FOR INFRASTRUCTURE INVESTMENTS

=======================================================================


                               (111-116)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 26, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
56-726                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Bowe, Pete, President, Ellicott Dredges, LLC.....................    37
Burkett, Tim, Chief Operations Officer, Biohabitats, Inc.........    37
Fernandez, John, Assistant Secretary for Economic Development, 
  U.S. Department of Commerce....................................     8
Harman, Elizabeth, Assistant Administrator, Grant Programs, 
  Federal Emergency Management Agency............................     8
Hooks, Craig E., Assistant Administrator for Administration and 
  Resources Management, Environmental Protection Agency..........     8
Rainville, Brian, High School Teacher and Son of Dairy Farmers...    37
Salt, Terrence C., Deputy Assistant Secretary of the Army (Civil 
  Works), U.S. Army Corps of Engineers...........................     8
Trimble, David, Acting Director, Natural Resources and 
  Environment, Government Accountability Office..................     8
Walsh, Mary, Chief of Staff, Public Buildings Service, ARRA 
  National Recovery Program Management Office, General Services 
  Administration.................................................     8
Welch, Kevin, Senior Project Manager, PCL Construction Services, 
  Inc., Representing the U.S. Green Building Council.............    37

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Mitchell, Hon. Harry E., of Arizona..............................    57
Oberstar, Hon. James L., of Minnesota............................    58
Richardson, Hon. Laura, of California............................    64

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bowe, Pete.......................................................    70
Burkett, Tim.....................................................    74
Fernandez, John..................................................    76
Harman, Elizabeth................................................    87
Hooks, Craig E...................................................   107
Rainville, Brian.................................................   122
Salt, Terrence C.................................................   124
Trimble, David...................................................   133
Walsh, Mary......................................................   156
Welch, Kevin.....................................................   172

                       SUBMISSIONS FOR THE RECORD

Committee on Transportation and Infrastructure, Majority Staff:..
      Chart entitled, ``Bridges Improved by Recovery Act Highway 
        and Bridge Funds''....................................... xcvii
      Chart entitled, ``Miles Improved by Recovery Act Highway 
        and Bridge Funds''.......................................  xcvi
      Chart entitled, ``T&I Committee Transparency and 
        Accountability Information by State and Formula Funding 
        under the American Recovery and Reinvestment Act of 2009 
        (P.L. 111-5) (Recovery Act) Submissions Received by T&I 
        Committee (Data Reported as of April 30, 2010)''........lxxxvii
      Chart entitled, ``T&I Committee Transparency and 
        Accountability Information by State under the American 
        Recovery and Reinvestment Act of 2009 (P.L. 111-5) 
        (Recovery Act) Submissions Received by T&I Committee 
        (Data Reported as of April 30, 2010), Percentage of 
        Allocated Funds Associated with Project Stages, Clean 
        Water State Revolving Fund''.............................   xcv
      Chart entitled, ``T&I Committee Transparency and 
        Accountability Information by State under the American 
        Recovery and Reinvestment Act of 2009 (P.L. 111-5) 
        (Recovery Act) Submissions Received by T&I Committee 
        (Data Reported as of April 30, 2010), Percentage of 
        Allocated Funds Associated with Project Stages, Highways 
        and Bridges''............................................  xciv
      Graph entitled, ``America is on a Path to Economic Recovery 
        from Job Losses to Job Gains''...........................     7
      Report entitled, ``The American Recovery and Reinvestment 
        Act of 2009 Transportation and Infrastructure Provisions 
        Implementation Status as of May 14, 2010''...............    xv
Fernandez, John, Assistant Secretary for Economic Development, 
  U.S. Department of Commerce, response to request for 
  information from Hon. Mica, a Representative in Congress from 
  the State of Florida...........................................    84
Harman, Elizabeth, Assistant Administrator, Grant Programs, 
  Federal Emergency Management Agency, response to request for 
  information from the Committee.................................    93
Hooks, Craig E., Assistant Administrator for Administration and 
  Resources Management, Environmental Protection Agency:.........
      Response to request for information from Hon. Mica, a 
        Representative in Congress from the State of Florida.....   117
      Response to request for information from Hon. Oberstar, a 
        Representative in Congress from the State of Minnesota...   121
Salt, Terrence C., Deputy Assistant Secretary of the Army (Civil 
  Works), U.S. Army Corps of Engineers, response to request for 
  information from Hon. Mica, a Representative in Congress from 
  the State of Florida...........................................   130
Trimble, David, Acting Director, Natural Resources and 
  Environment, Government Accountability Office:.................
      Response to request for information from Hon. Mica, a 
        Representative in Congress from the State of Florida.....   153
      Response to request for information from Hon. Oberstar, a 
        Representative in Congress from the State of Minnesota...   155
Walsh, Mary, Chief of Staff, Public Buildings Service, ARRA 
  National Recovery Program Management Office, General Services 
  Administration, response to request for information from the 
  Committee......................................................   166

                        ADDITIONS TO THE RECORD

International Boundary Water Commission, United States and 
  Mexico, Edward Drusina, United States Commisiioner, written 
  testimony......................................................   180
Natural Resources Conservation Service, U.S. Department of 
  Agriculture, David White, Cheif, written testimony.............   182
Smithsonian Institution, Dr. G. Wayne Clough, Secretary, written 
  testimony......................................................   188
United States Coast Guard, U.S. Department of Homeland Security, 
  written testimony..............................................   192


[GRAPHIC] [TIFF OMITTED] 56726.001

[GRAPHIC] [TIFF OMITTED] 56726.002

[GRAPHIC] [TIFF OMITTED] 56726.003

[GRAPHIC] [TIFF OMITTED] 56726.004

[GRAPHIC] [TIFF OMITTED] 56726.005

[GRAPHIC] [TIFF OMITTED] 56726.006

[GRAPHIC] [TIFF OMITTED] 56726.007

[GRAPHIC] [TIFF OMITTED] 56726.008

[GRAPHIC] [TIFF OMITTED] 56726.009

[GRAPHIC] [TIFF OMITTED] 56726.010

[GRAPHIC] [TIFF OMITTED] 56726.011

[GRAPHIC] [TIFF OMITTED] 56726.012

[GRAPHIC] [TIFF OMITTED] 56726.013

[GRAPHIC] [TIFF OMITTED] 56726.014

[GRAPHIC] [TIFF OMITTED] 56726.015

[GRAPHIC] [TIFF OMITTED] 56726.016

[GRAPHIC] [TIFF OMITTED] 56726.017

[GRAPHIC] [TIFF OMITTED] 56726.018

[GRAPHIC] [TIFF OMITTED] 56726.019

[GRAPHIC] [TIFF OMITTED] 56726.020

[GRAPHIC] [TIFF OMITTED] 56726.021

[GRAPHIC] [TIFF OMITTED] 56726.022

[GRAPHIC] [TIFF OMITTED] 56726.023

[GRAPHIC] [TIFF OMITTED] 56726.024

[GRAPHIC] [TIFF OMITTED] 56726.025

[GRAPHIC] [TIFF OMITTED] 56726.026

[GRAPHIC] [TIFF OMITTED] 56726.027

[GRAPHIC] [TIFF OMITTED] 56726.028

[GRAPHIC] [TIFF OMITTED] 56726.029

[GRAPHIC] [TIFF OMITTED] 56726.030

[GRAPHIC] [TIFF OMITTED] 56726.031

[GRAPHIC] [TIFF OMITTED] 56726.032

[GRAPHIC] [TIFF OMITTED] 56726.033

[GRAPHIC] [TIFF OMITTED] 56726.034

[GRAPHIC] [TIFF OMITTED] 56726.035

[GRAPHIC] [TIFF OMITTED] 56726.036

[GRAPHIC] [TIFF OMITTED] 56726.037

[GRAPHIC] [TIFF OMITTED] 56726.038

[GRAPHIC] [TIFF OMITTED] 56726.039

[GRAPHIC] [TIFF OMITTED] 56726.040

[GRAPHIC] [TIFF OMITTED] 56726.041

[GRAPHIC] [TIFF OMITTED] 56726.042

[GRAPHIC] [TIFF OMITTED] 56726.043

[GRAPHIC] [TIFF OMITTED] 56726.044

[GRAPHIC] [TIFF OMITTED] 56726.045

[GRAPHIC] [TIFF OMITTED] 56726.046

[GRAPHIC] [TIFF OMITTED] 56726.047

[GRAPHIC] [TIFF OMITTED] 56726.048

[GRAPHIC] [TIFF OMITTED] 56726.049

[GRAPHIC] [TIFF OMITTED] 56726.050

[GRAPHIC] [TIFF OMITTED] 56726.051

[GRAPHIC] [TIFF OMITTED] 56726.052

[GRAPHIC] [TIFF OMITTED] 56726.053

[GRAPHIC] [TIFF OMITTED] 56726.054

[GRAPHIC] [TIFF OMITTED] 56726.055

[GRAPHIC] [TIFF OMITTED] 56726.056

[GRAPHIC] [TIFF OMITTED] 56726.057

[GRAPHIC] [TIFF OMITTED] 56726.058

[GRAPHIC] [TIFF OMITTED] 56726.059

[GRAPHIC] [TIFF OMITTED] 56726.060

[GRAPHIC] [TIFF OMITTED] 56726.061

[GRAPHIC] [TIFF OMITTED] 56726.062

[GRAPHIC] [TIFF OMITTED] 56726.063

[GRAPHIC] [TIFF OMITTED] 56726.064

[GRAPHIC] [TIFF OMITTED] 56726.065

[GRAPHIC] [TIFF OMITTED] 56726.066

[GRAPHIC] [TIFF OMITTED] 56726.067

[GRAPHIC] [TIFF OMITTED] 56726.068

[GRAPHIC] [TIFF OMITTED] 56726.069

[GRAPHIC] [TIFF OMITTED] 56726.070

[GRAPHIC] [TIFF OMITTED] 56726.071

[GRAPHIC] [TIFF OMITTED] 56726.072

[GRAPHIC] [TIFF OMITTED] 56726.073

[GRAPHIC] [TIFF OMITTED] 56726.074

[GRAPHIC] [TIFF OMITTED] 56726.075

[GRAPHIC] [TIFF OMITTED] 56726.076

[GRAPHIC] [TIFF OMITTED] 56726.077

[GRAPHIC] [TIFF OMITTED] 56726.078

[GRAPHIC] [TIFF OMITTED] 56726.079

[GRAPHIC] [TIFF OMITTED] 56726.080

[GRAPHIC] [TIFF OMITTED] 56726.081

[GRAPHIC] [TIFF OMITTED] 56726.082

[GRAPHIC] [TIFF OMITTED] 56726.083

[GRAPHIC] [TIFF OMITTED] 56726.084

[GRAPHIC] [TIFF OMITTED] 56726.085

[GRAPHIC] [TIFF OMITTED] 56726.086

[GRAPHIC] [TIFF OMITTED] 56726.087

[GRAPHIC] [TIFF OMITTED] 56726.088

[GRAPHIC] [TIFF OMITTED] 56726.089

[GRAPHIC] [TIFF OMITTED] 56726.090

[GRAPHIC] [TIFF OMITTED] 56726.091

[GRAPHIC] [TIFF OMITTED] 56726.092

[GRAPHIC] [TIFF OMITTED] 56726.093



HEARING ON RECOVERY ACT: PROGRESS REPORT FOR INFRASTRUCTURE INVESTMENTS

                              ----------                              


                        Wednesday, May 26, 2010,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 10:09 a.m., in room 
2167, Rayburn House Office Building, the Honorable James 
Oberstar [Chairman of the Full Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order for the purpose of our 
hearing this morning, the 19th in a series of hearings we have 
conducted to maintain oversight, accountability, and 
transparency on this Committee's portion of the Recovery Act 
funds, which I call stimulus funding.
    There is no question about the use of the funds from the 
programs under the jurisdiction of this Committee, especially, 
in highway and transit, because those funds go out by formula 
to each State, which receives its specific apportionment 
according to law, and the distribution is very clear. There is 
a very clear path from the time the State DOT obligates the 
funds, announces bids, invites bids, awards bids, contract gets 
underway, construction work is underway, and the reimbursement 
process begins.
    All of that is measurable, trackable, and we receive a 
report every 30 days, with now 100 percent of the $34 billion 
in highway and transit funds obligated, all $34 billion. 
Fifteen thousand, eight hundred seventy-eight projects are out 
to bid. That is $30.7 billion, 90 percent of the funds out to 
bid. Fourteen thousand, six hundred thirty-four projects are 
under contract. That is 83 percent of the funds. Thirteen 
thousand, one hundred forty-eight projects are actually 
underway on job sites. That is 78 percent of the funds. And 12 
percent of all the funds, 5,069 projects, are actually 
completed already.
    The Clean Water State Revolving Fund formula programs, 
1,962 projects out to bid. That is 100 percent of the $3.8 
billion. One thousand, nine hundred fifty-six projects are 
under contract. That also is 100 percent. And 1,836 projects 
work is underway, 96 percent of the funding.
    In addition, we can account for 1,170,000 jobs in the first 
year of the stimulus program on highway, transit, and 
wastewater treatment; and an additional 159,066 total direct 
indirect and induced jobs, that is, those that are on job site, 
the Ready Mix plants that reopened, the sand and gravel pits 
that reopened, the rebar, the steel service centers, all of 
which would not have been producing without these stimulus 
funds. We can account for $2.3 billion in direct jobs, that is, 
those that are on job site, $2.3 billion in payroll; $472 
million in taxes paid by those working, by those onsite job 
persons; and $387 million in unemployment compensation checks 
avoided because people are being paid to work and not paid for 
not working.
    In addition, well over 34,000 lane miles of highway have 
been improved, upgraded, replaced. That is roughly equal to 
three-fourths of the interstate highway system in one year. 
Twelve hundred sixty-one bridges restored, replaced, rebuilt; 
10,000 transit buses acquired, purchased, produced by the three 
manufacturers in the U.S., all 100 percent American made; and 
some 2400 transit stations replaced, rebuilt, restored.
    Not only do we have people working, not only are they 
paying taxes, they are paying their mortgages, they are not 
getting unemployment compensation checks, they are leaving real 
tangible benefits behind in permanent improvements that improve 
productivity in our total economy.
    Think of December 2008, just before we launched the 
stimulus. The economy lost 673,000 jobs. In April of this year 
the economy gained 290,000 jobs. The Recovery Act really has 
stimulated economic development not only on the job sites, on 
the projects under the jurisdiction of this Committee, but all 
throughout the economy.
    We have testimony today from the Environmental Protection 
Agency, from the Assistant Secretary of the Army for Civil 
Works, the Corps of Engineers, the Public Buildings Service, 
Economic Development Administration, and FEMA. We also have 
testimony from GAO, which is going to give us a report on their 
assessment of success stories and problems and concerns with 
oversight by the responsible Federal Government agencies; and 
we have a third panel including a dairy farmer from Franklin, 
Vermont, the President of Ellicott Dredges, the Biohabitats 
Company, and the Green Building Council.
    I think on these programs under the jurisdiction of our 
Committee there is a good and encouraging success story to 
tell. The $1.1 billion in EPA projects that have improved 
public treatment works affecting 60 million people, about a 
third of those covered by sewers. The Corps of Engineers will 
report on their navigation repair and improvement to 284 locks, 
commercial ports, 1,124 dam and safety levee projects, and 
upgrading of 460 recreation areas. GSA will give us a detailed 
report on their insulation of photovoltaic arrays on roofs and 
improvement of water systems.
    All in all, I think, for the work under the jurisdiction of 
our Committee, we can say that, from my perspective, it has 
been a success putting people to work, using the funds 
productively, leaving permanent benefits behind.
    With that, I yield to Mr. Mica, the senior Republican on 
our Committee.
    Mr. Mica. Well, thank you so much. I must say Mr. Oberstar 
and I had the same intentions. We came back right after the 
elections, before we passed the stimulus package. We tried to 
put together a package that would have truly put people to 
work, I believe; probably would have been about $120 billion to 
$150 billion. We had support from the Committee. We thought the 
bill total would be about $250 billion, $300 billion. As it 
turned out, it was $787 billion. About 7 percent went for 
infrastructure. Of that, the Department of Transportation had 
$48 billion.
    And, Mr. Chair, you tried to put as positive a light on the 
success, and I think they are trying to get that money out, but 
as of May 21st, only 25 percent of the total money had actually 
been spent by the Department of Transportation. And today we 
are not focusing on the Department of Transportation, we are 
focusing on other agencies; and I put the other agencies up 
there that are testifying today. I wish the performance could 
be better for getting the money out, because we need to get 
people to work. We need jobs.
    Now, the little chart that I has shows that, unfortunately, 
FEMA has probably the lowest percentage out, less than 1 
percent of the money out. Then we have some not as bad 
performers: 7 percent of money. This is actually money spent. 
There is money allocated, and I will talk about that in a 
minute. We have two in the 7 percent range, GSA. And GSA has a 
huge amount. Let me say for FEMA, they have a much smaller 
amount, but a very small amount.
    Ms. Norton, if you will note that, maybe we can light a 
fire under those people. Got a lot of buildings that we could 
acquire, right, Mr. Chairman, Madam Chairman? And we could save 
the taxpayers a huge amount of money buying buildings or re-
leasing at 50 cents on a dollar. God, that would be a stupid 
deal.
    OK, then we have the Corps of Engineers is actually the 
best, I guess, in actually spending the money; they have 30 
percent spent.
    So that is the little report, and you can see by that 
chart.
    Now, you know, if you believe the stimulus package is 
bringing the economy around, maybe again you are smoking the 
funny weed, folks, because unemployment actually went up to 9.9 
percent across the Country. It is devastating in my State. I 
have a couple counties with over 16 percent unemployment in 
Florida. In fact, the CBS New York Times poll, now, they aren't 
the most conservative group around, found only 6 percent of 
Americans believe, now, there is an element of belief in this, 
that the stimulus has created jobs.
    Well, the Associated Press found that 34 percent of 
Americans believe in UFOs. So there is more belief in 
unidentified flying objects than there are that the stimulus is 
actually helping. And if you look at the data, again, we are 
growing in unemployment nationally.
    There are some disturbing trends here. Unemployment in the 
construction sector is now 21.8 percent. And this Committee, 
with our legislation and our effort, could and should get more 
people to work. And I know every Member here is hurting in 
their respective districts. The numbers of jobs lost since the 
start of 2008 is 8 million jobs. They told us if we passed the 
stimulus, the $787 billion package, that we would keep 
unemployment at 8 percent. Folks, it is not happening.
    Finally, let me tell you a couple things. I got this 
economic recovery. This is the Florida fact sheet. Other 
Members, you ought to get one of these; they probably have them 
for every State, maybe the District too, Ms. Norton. But it is 
quite revealing. I was shocked to see that Florida requested 
$6.9 billion and we got $1.3 billion allocated for Florida. So 
far, to date, you know what we have spent? Two hundred thirty 
million dollars.
    Do you know what every job costs us? This is from the 
report, and this data is online from the Administration. We 
created or saved 2,000 jobs, and the cost of each job was 
$115,000. So I have some issues there.
    Then the Government Accountability Office, not the 
Republican side of the aisle, but the Government Accountability 
Office found that one out of every ten jobs that were saved or 
created by the stimulus came from projects that haven't spent 
any money yet. That is not me, that is the GAO in their 
evaluation of the performance of this program.
    Finally, a new phenomena is occurring. We are, what, 16 
months into this, 15 months into this? And I was stunned when I 
heard this. This is what is called a de-obligation sheet. And 
you are going to hear, oh, we have only spent a small amount of 
money, but we have obligated a great deal of money in these 
agencies. Members ought to get a copy of this. This is the de-
obligation sheet by district.
    What is happening is the projects are being de-obligated, 
and for several reasons that I looked into: one, States who 
have to work in an honest, fiscally responsible manner, in 
other words, they have to balance their budget, some of them 
are cutting back dramatically on projects because their 
revenues are less. So what is happening is they are de-
obligating projects. And then some, of course, are getting re-
obligated.
    But this is something to look at. It is taking so long and 
it is so difficult to approve some of these projects, and then 
the States have shortfalls or local government. These are 
hundreds of millions of dollars in de-obligation which is 
taking place, a new phenomena that concerns me. And, again, we 
have seen the difficulty in getting that money out there.
    So I want to get the money out there. We need to cut the 
red tape; we need to cut some of the bureaucracy. If we can do 
it in Mr. Oberstar's area, with the bridge that took 437 days 
to replace over the Mississippi River between Minneapolis and 
St. Paul, if we did it there and that was a crisis, an 
emergency to replace the interstate, there is no reason that we 
can't, in this emergency situation, put people to work and 
expedite either a category of funding or specific projects like 
we did in Minneapolis and get people working, get projects and 
infrastructure underway in this Country.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Oberstar. Well, you don't yield back time because you 
have unlimited time to speak.
    Mr. Mica. Well, I meant----
    Mr. Oberstar. You concluded what you had to say. Thank you. 
It is the practice in our Committee that the Chair and the 
Ranking Member have such time as they may need to make their 
case, and you have made your case. And I fully agree that our 
Committee, and I have said it many, many times, should have had 
at least $250 billion of the stimulus, because we can track it, 
we know where it is going, the projects go out, the people are 
on job sites, and the results are long-term and lasting.
    Yet, I think the gentleman's comment about money being 
spent is not a complete representation of the picture, because 
in the Federal highway program it is a reimbursement program. 
The State advertises for bids, awards bids, contractors begin 
work, the State pays the contractor and then bills the Federal 
Government for reimbursement. Those reimbursements lag 
significantly. That is the spending part, when the State is 
reimbursed.
    So the projects and the work and the jobs and the payrolls 
precede the so-called spending. So when I said that there is a 
very substantial $2.3 billion in payroll, those are people on 
job sites, the direct jobs. I don't have payroll numbers for 
those in the secondary because I don't think it is appropriate 
to try to get those numbers. But we know that there are induced 
jobs, and every contractor can tell you that when they win the 
bid, they then open their sand and gravel pit, and that means 
people working who are not on the job site, but they are 
supplying for the job site.
    Secondly, for the de-obligation, it is an interesting 
phenomenon that when the bids started coming in 25 percent 
below final design estimates, States realized that they could 
award many more contracts and do much more work, so they de-
obligated projects and then started over again; that is, they 
said they are not going to do this project now, we are going to 
do it another time, we are going to redesign it, and they got 
more for their dollar amount.
    Ms. Norton, a few minutes.
    Ms. Norton. Thank you, Mr. Chairman. I am very glad that 
you clarified that point, because I think that point is of 
utmost importance to how this money is being used and that 
States are taking advantage of the fact that the one advantage 
we have in this recession is that it has lowered the price of 
what has to be done and what has to be bought.
    I do want to say, Mr. Chairman, that, true to your word, 
you have given new meaning to the word oversight. You were 
never wanting for that, but these hearings and the 30-day 
reports have had a real effect. I have tried to follow your 
example. We have had a great number of hearings in our own 
Subcommittee, and where I could get out, I have actually gone 
and done unannounced site visits.
    I do want to correct some of what the Ranking Member said, 
because it seems to me you have to talk about these things in 
terms of percentages; you know just show a graph and say how 
much this, that, or the other. For example, the General 
Services Administration has begun work on 74 percent of the 
funds. EDA has allocated all and broken ground on 62 percent.
    And if I may say so, Mr. Chairman, all but the GSA, which 
gets to spend directly, are working through States. So the EDA 
and these other agencies don't have the direct control that can 
command that the money be spent; we have to use the kind of due 
diligence to assure competition. And, yet, look at the effect 
they are having.
    Mr. Chairman, finally, I want to just say this is something 
you don't have to see up close to refute the notion that the 
stimulus has done no good. This is where the Bush 
administration left everybody: way below the line; so below the 
line that nobody thought we would ever rise above that line in 
our lifetime. You don't need to see this up close, I think you 
have it on your desks, to see where we are now.
    This down line has gradually diminished and we have nothing 
but up lines in that column. It didn't get that way by osmosis; 
it got that way for a number of reasons. This is not the only 
Committee that has been working to, in fact, heal the economy, 
but, for sure, the reason that there is less unemployment, the 
reason that this line looks the way it does has a great deal to 
do with what the stimulus funds allocated by this Committee 
have done.
    And I think the Chairman and the Administration deserve our 
commendation for these results, graphic results. You want to 
put something up there? Put this up there and explain this 
except by what the Administration, this Committee, and other 
Committees have done.
    Thank you, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 56726.094
    
    Mr. Oberstar. I thank you for that chart. You get the 
Committee award for the most hearings next to the full 
Committee hearings. You have been vigorous in your pursuit of 
the responsibilities and I thank you for your relentless 
pursuit.
    Will there be one Member on the Republican side?
    Mr. Mica. We don't have anyone.
    Mr. Oberstar. We will then begin with our first panel. We 
will begin with Craig Hooks, Assistant Administrator for 
Administration and Resources Management at EPA. Thank you for 
being with us.
    Mr. Hooks. Thank you, Mr. Chairman.
    Mr. Oberstar. Good to see you again.
    Mr. Hooks. Likewise.

   TESTIMONY OF CRAIG E. HOOKS, ASSISTANT ADMINISTRATOR FOR 
    ADMINISTRATION AND RESOURCES MANAGEMENT, ENVIRONMENTAL 
PROTECTION AGENCY; TERRENCE C. SALT, DEPUTY ASSISTANT SECRETARY 
 OF THE ARMY (CIVIL WORKS), U.S. ARMY CORPS OF ENGINEERS; MARY 
WALSH, CHIEF OF STAFF, PUBLIC BUILDINGS SERVICE, ARRA NATIONAL 
     RECOVERY PROGRAM MANAGEMENT OFFICE, GENERAL SERVICES 
    ADMINISTRATION; JOHN FERNANDEZ, ASSISTANT SECRETARY FOR 
 ECONOMIC DEVELOPMENT, U.S. DEPARTMENT OF COMMERCE; ELIZABETH 
   HARMAN, ASSISTANT ADMINISTRATOR, GRANT PROGRAMS, FEDERAL 
    EMERGENCY MANAGEMENT AGENCY; AND DAVID TRIMBLE, ACTING 
    DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Hooks. Mr. Chairman, Ranking Member Mica, and Members 
of the Committee, thank you once again for providing me the 
opportunity to appear before you today to discuss EPA's 
progress in implementing the American Recovery and Reinvestment 
Act.
    EPA received $7.2 billion for programs administered by the 
Agency to protect and promote both green jobs and a healthier 
environment. These programs include the Clean Water State 
Revolving Fund, the Drinking Water State Revolving Fund, the 
Superfund Program, the Brownfields Program, the Leaking 
Underground Storage Tanks Program, and the Diesel Emission 
Reductions Program.
    As I reported to you last time I appeared before this 
Committee, in February, we worked very hard to quickly 
distribute 100 percent of the funds to our partners to clear 
the way for rapid investment in construction, land reuse, and 
redevelopment. With that task behind us, we have closely 
monitored expenditures, tracked how quickly cleanup and 
construction projects are completed, and documented 
environmental and economic achievements, and the news is good.
    According to the latest data, recipients of EPA Recovery 
Act funds have reported over 9,600 jobs as of March 31. We have 
seen an increase of over 2,800 reported new jobs in just about 
three months, the majority coming from State Revolving Fund 
projects. We are very encouraged by the creation of these jobs 
and I believe that they will continue to grow.
    A number of these jobs resulted from the Recovery Act 
funding that went to train individuals to pursue environmental 
careers. One such example comes from a three-year, $500,000 
Brownfields Job Training grant given to Florida State College 
in Jacksonville. On February 26th of this year, 22 out of 24 
students graduated from the first environmental cleanup job 
training course.
    Of the $4 billion provided to the Clean Water State 
Revolving Fund, the March 31 report indicates that 90 percent, 
or 1,585 of the non-tribal Clean Water SRF projects have 
started construction and 58 are complete. Thirty tribal 
projects are underway and nine projects are already completed 
there as well.
    Currently, 46 Superfund sites have initiated onsite 
construction with new or ongoing projects, with the five 
remaining Recovery Act funded sites commencing work within the 
next two months. Twenty-seven percent of the $600 million are 
in rural areas and 20 percent of the Superfund sites have 
achieved construction completion, and at 60 percent of the 
sites human exposures are now under control.
    Of the $100 million allocated for the Brownfields Program 
to assess and clean up contaminated land, assessments are 
complete for 233 properties. We are currently processing $10.75 
million in loans in subgrant activity for Brownfields Revolving 
Fund grantees.
    We are already seeing numerous examples of how Recovery Act 
funds are responsible for many environmental success stories 
across the Nation. For example, trash and litter, along with 
other pollutants, threaten urban waterways like Indian Creek 
and Cobbs Creek in Pennsylvania. On a recent visit to Cobbs 
Creek, I was able to see how Recovery Act funds focusing on 
green infrastructure are helping to empower local residents to 
take important and critical steps to protect their community.
    Earlier this month, I also had the opportunity to visit, 
personally experience and see the environmental conditions 
found in Camden, New Jersey, in the spirit of its residents and 
the progress EPA has made in cleaning up areas for reuse by 
this community. The Camden Redevelopment Agency is using 
$400,000 in Recovery Act funds to conduct environmental site 
assessments and support community outreach activities. Cleaning 
up this property will facilitate the future development of 
several light industry complexes in this area.
    Recovery Act funding is also helping EPA's Superfund 
response in places like Coeur d'Alene, Idaho. This Superfund 
cleanup consisted of removing lead-and arsenic-contaminated 
soil and gravel in 260 properties, more than doubling the 
cleanup activities completed during the previous construction 
season.
    Over the next six months, we anticipate many new project 
starts, more job creation, and other success stories where 
there are measurable public health and environmental results. 
We look forward to continuing our work with this Committee, our 
partners, and the public to ensure an economically and 
environmentally healthier country for all Americans.
    Thank you again for inviting me to testify here today, and 
I look forward to answering any questions that you might have.
    Mr. Oberstar. Thank you for that testimony. I have a number 
of questions, which I am sure others do as well, but I will 
follow up later.
    Mr. Secretary, Civil Works. You call yourself Rock Salt?
    Mr. Salt. Yes.
    Mr. Oberstar. That is a great name. Please proceed.
    Mr. Salt. Yes, sir. Mr. Chairman and distinguished Members 
of the Committee, I am Rock Salt, the Principal Deputy 
Assistant Secretary of the Army for Civil Works. Thank you for 
the opportunity to testify before the Committee today and 
discuss the U.S. Army Corps of Engineers' implementation of the 
Civil Works appropriation within the American Recovery and 
Reinvestment Act of 2009.
    The Corps continues to make great strides to accomplish 
Recovery Act goals through the development and restoration of 
the Nation's water resources activities, protecting the 
Nation's regulated waters and wetlands, and cleaning sites 
contaminated from early efforts to develop atomic weapons. It 
is well known that the Corps has a backlog of critical 
infrastructure work for many aging structures, many that are 
well over 50 years old. The Recovery Act funds have enabled the 
Corps to accelerate repair and improvement of many projects, 
thereby mitigating the risk to American lives and property, and 
putting many Americans to work.
    Work the Corps has underway includes the repairing or 
improving of 48 locks and 236 commercial ports to reduce the 
risk of failures that would disrupt navigation and be 
detrimental to the American economy. In addition, 35 hydropower 
projects are being repaired or improved to avoid disruptive 
power outages. What the Corps is doing with Recovery Act funds 
is not only a short-term stimulus, but also a long-term 
contribution to the stability of the American economy and the 
well-being of our Nation's citizens.
    As of April 30th, 2010, our financial obligations are over 
$3.5 billion. Total outlays, primarily comprising payments made 
to contractors for work completed, have reached nearly $1.4 
billion. We have completed work on over 150 projects. Work is 
underway or complete for 284 navigation projects, 304 flood 
risk management projects, 143 environmental restoration 
projects, 148 environmental infrastructure projects, and 35 
hydropower projects, as well as the inspection of 820 levees.
    The Corps has awarded over 4,400 contract actions, with 73 
percent awarded to small businesses. Almost $1.4 billion, or 44 
percent, of the total dollar value has been awarded to small 
businesses. In addition, larger companies receiving Civil Works 
contracts are encouraged to hire local small businesses as 
their subcontractors.
    Recipients of Civil Works funds report approximately 6,700 
jobs created or retained for the third reporting quarter. Civil 
Works investments also support numerous indirect jobs in 
industry supplying material and equipment, and jobs are 
supported as direct and indirect income generates increased 
consumer spending.
    The $4.6 billion in Recovery Act funds provided to the 
Corps has provided resources for the Corps Civil Works program 
to pursue investments that create and preserve jobs and yield 
good returns for the Nation's economy.
    Thank you for allowing me to testify today. I look forward 
to questions from you or other Members of the Committee.
    Mr. Oberstar. Thank you'very much, Mr. Secretary. And I 
will have questions, but I just want to take this brief moment.
    Sunday I was in Rochester, Minnesota. I had been there for 
a meeting with local and county government officials on their 
transportation needs, but also to tour the Corps' flood control 
project. In 1978, the City of Rochester was devastated by a 
massive flood following several days of heavy rain. Seven 
people died in a nursing home when, trying to get out of the 
building and the elevated shorted out, they sank to the bottom 
and drowned in their elevator.
    I was at a meeting in the yard of the home of an 
endocrinologist at the Mayo Clinic with a gathering, and she 
said this property was under water, completely under water in 
1978. Last summer we had a similar immense rainfall and this 
property was dry.
    I had the opportunity to bike ride along the bicycle 
trails, 30 miles of cycling, I might say, around the flood 
control projects of Rochester, Minnesota, to see the permanent 
benefits that happen when you do the right thing, when the 
Corps, that gets so much criticism from people about not doing 
this or not doing something else. This is one of thousands of 
projects the Corps has undertaken that have saved lives and 
made a difference in the economy. The central city of Rochester 
is vibrant again because of that flood control project.
    Mr. Salt. Yes, sir. Thank you.
    Mr. Oberstar. Not my district, but I supported it. I 
introduced it.
    Ms. Walsh, thank you for being with us.
    Ms. Walsh. Good morning, Chairman Oberstar, Ranking Member 
Mica, and other Members of the Committee. My name is Mary 
Walsh. I am the Chief of Staff for the Recovery Program 
Management Office of the General Services Administration's 
Public Buildings Services. Thank you for the opportunity to 
appear before you today to discuss GSA's contribution to our 
Nation's economic recovery through green modernization and new 
construction of our Federal buildings.
    The investments we made and continue to make in our public 
buildings are helping to stimulate job growth and retention, 
and improve the environmental performance of our inventory, as 
well as facilitate developments in energy-efficient 
technologies, renewable energy generation, and green building 
solutions.
    I would like to summarize our recent accomplishments. We 
submitted an initial spend plan on march 31st, 2009, based on 
two overarching criteria: the potential of projects, one, to 
put people back to work quickly and, two, to transform Federal 
buildings into high-performance green buildings.
    As we identified savings from projects underway, we revised 
the spend plan to reallocate these savings toward the 
enhancement, acceleration, or funding of other projects. To 
date, we have revised our spend plan three times, in November, 
January, and March. These revisions represent a reallocation of 
more than $500 million. Our current spend plan includes 262 
projects in all 50 States, the District of Columbia, and two 
U.S. territories. Our objective is to deliver projects on 
schedule, on budget, and on green.
    We established and met aggressive targets to fulfill the 
intent of the Recovery Act, including $1 billion in contract 
awards by August 1st, 2001; $2 billion in total contract awards 
by December 31st, 2009; over $4 billion in total contract 
awards by March 31st, 2010. We are on track to meet our next 
target of awarding $5 billion in total construction awards by 
September 30th, 2010.
    We are meeting our performance target of on green by 
investing in high-performance green building projects. Recovery 
funds also provide us with the opportunity to become a green 
proving ground by identifying projects and gathering data to 
measure the returns on investment in emerging green 
technologies and practices. Our investments are helping to 
stimulate the economy. To date, we have obligated over $4.1 
billion to more than 500 companies. Notably, GSA's obligations 
are awards that flow directly to our contractors in the 
construction, real estate, architecture, and engineering 
sectors.
    Significant activity immediately follows contract award. 
For example, contractors must secure financing, hire personnel, 
and begin first steps to perform the contract. As progress is 
made, payments for work associated with construction or design 
projects are outlaid through progress payments. This continues 
over the life of the contract and provides steady support for 
our economy over an extended period, not just a jolt that lasts 
only a few months.
    Our Recovery Act funding recipients have reported that 
2,683 prime contractor jobs were funded as a direct result of 
PBS Recovery Act funding during the reporting quarter ended 
March 31st, 2010. I am proud to report that, as of April 30th, 
2010, more than 99 percent of GSA's recipients have reported in 
539 reports.
    GSA's infrastructure investments vary in scope, type, and 
complexity, and cover our entire portfolio. Projects range from 
the new courthouse in Austin, Texas, to St. Elizabeths in 
Washington, D.C., the largest Federal project in the area since 
the construction of the Pentagon. At the B.H. Whipple Federal 
Building project in Fort Snelling, Minnesota, the facility will 
use a geothermal ground source heat pump system for both 
heating and cooling that will greatly reduce the facility's 
energy usage. Other exciting new approaches to energy 
conservation include a net zero energy building at the 
Columbus, New Mexico Land Port of Entry.
    Apprenticeship and pre-apprenticeship programs are also an 
important part of our Recovery Act program. Since the launch of 
the pre-apprenticeship program, GSA has made three awards. 
These include the Community Services Agency of the Metropolitan 
Washington Council, AFL-CIO in Washington, D.C., Oregon 
Tradeswomen Inc. in Portland, Oregon, and Warren Electrical 
Joint Apprenticeship and Training Trust Fund. CSA graduated 126 
pre-apprenticeship trainees, with 52 hired for employment. OTI 
graduated 79 pre-apprenticeship trainees, with 22 hired for 
employment.
    In addition to our Recovery Act funds, we have received 
over $428 million of an expected $1 billion in Recovery Act 
reimbursable work from other agencies, such as the Department 
of State and the Social Security Administration.
    Today I have described GSA's accomplishments and 
contributions to our Nation's economic recovery through funds 
provided by the Recovery Act of 2009. Thank you for the 
opportunity to appear before you today. We look forward to 
working with you and Members of this Committee as we continue 
to deliver this important work.
    Mr. Oberstar. Thank you'very much for that very 
encouraging, uplifting report. Again, I will have questions 
later, as will others.
    Mr. Fernandez for EDA.
    Mr. Fernandez. Good morning.
    Mr. Oberstar. Probably my favorite of all Federal 
Government agencies, since I was there at its creation.
    Mr. Fernandez. And we appreciate your continued support, 
Mr. Chairman.
    Mr. Oberstar. For those who don't understand, the shorthand 
of that remark is that I was chief of staff for my predecessor 
in 1965, when we wrote the Federal Economic Development 
Administration and Appalachian Regional Commission legislation, 
Mrs. Capito, and I wasn't a Member of Congress, but I feel 
ownership of that legislation and I am very proud of what has 
been accomplished in Appalachia and in EDA.
    So please proceed.
    Mr. Fernandez. Thank you, Mr. Chairman and Ranking Member 
Capito and Members of the Committee. I appreciate the 
opportunity to update you on our progress with our EDA Recovery 
Act projects.
    As you know, we received $150 million in Recovery Act 
funding. By the end of last September, a year ahead of 
schedule, we approved 100 percent of our allocation, funding 68 
projects in 37 States. We invested $50 million to promote the 
development of regional innovation clusters, $37 million to 
promote business incubation, $27 million to promote green jobs, 
$11 million for trade promotion, and another $25 million for a 
variety of other development projects. Our project investments 
ranged from $184,000 to $6.4 million.
    EDA awarded $141.3 million, 96 percent of our Recovery Act 
funds for construction projects. EDA's Recovery Act investments 
are expected to leverage $981 million in private investment 
over the next nine years.
    In the three months since I last appeared before the 
Committee, a number of additional projects have broken ground, 
helping communities and businesses create jobs. To date, 72 
percent of EDA's Recovery Act projects are underway, compared 
to 41 percent three months ago. These projects total $101.1 
million, or 76 percent of our Recovery Act allocation. I am 
pleased to report that, to date, nearly all of our projects in 
our portfolio met anticipated construction start dates and 
other project implementation milestones.
    In addition, with our regional offices, we developed 
specific outreach initiatives to assist our recipient partners 
meet the reporting requirements of the Recovery Act. At the end 
of the second reporting period, 100 percent of our Recovery Act 
grant recipients successfully met progress reporting 
requirements.
    EDA's ability to successfully implement the Recovery Act 
should be no surprise to those familiar with the Agency. We 
have a long history of working with communities to provide 
effective technical assistance and capital investments through 
our traditional Economic Development Assistance Programs, as 
well as through budgetary supplementals such as disaster 
recovery initiatives.
    EDA designs its programs to support job creation and strong 
regional economies. EDA particularly focuses on building upon 
two key economic drivers, innovation and regional 
collaboration. Many of EDA's traditional programs support these 
efforts. For example, the agency's Revolving Loan Fund provides 
much needed capital to help grow and create businesses, and 
EDA's University Center Program leverages local assets to 
support regional collaboration.
    EDA's ability to obligate the Agency's entire Recovery Act 
allocation a year ahead of schedule exemplifies the flexibility 
of its programs and the continued dedication of EDA staff. In 
addition, our experience administrating the Recovery Act funds 
has given us a unique opportunity to evaluate the strengths and 
weaknesses of our programs and processes.
    I am personally committed to making our grant application 
system work even better for future EDA applicants. Based in 
part on our experience with the Recovery Act, I launched a 
major process improvement initiative. We are analyzing how we 
can make our grant process even more transparent, accessible, 
and effective, while increasing the overall return on 
investment. We know that our grantees will welcome this kind of 
improvement, and we continually reach out to our stakeholders 
for feedback. We plan to roll out our improved process by the 
end of this year.
    Mr. Chairman, EDA has a long and successful history working 
with you and this Committee. Though our Recovery Act allocation 
has been awarded, our work to improve the economic conditions 
in our Country is far from done. The Department of Commerce is 
looking forward to working with the Congress on reauthorization 
of EDA to develop an even stronger framework for sustainable 
economic development that meets the needs of the 21st century.
    Chairman Oberstar and Members of the Committee, I want to 
thank you for your time today and look forward to any questions 
you might have.
    Mr. Oberstar. Thank you for that excellent report. Some of 
the details which you did not cite, but I will just briefly at 
this moment. On page 4 of your testimony, the Northeastern 
Minnesota Regional Aviation Cluster is a significant example of 
EDA's sustained investment in an area that traditionally had 
high unemployment.
    The city just north of Duluth, the iron ore mining country, 
lost 12,000 jobs when the steel industry crashed in 1982. We 
have rebounded, but we are still 4,000 jobs instead of 16,000. 
Duluth lost the steel mill, the Coke plant, the cement plant, 
the Coolerator plant. Each time they have come back with help 
from EDA.
    And this aviation cluster cited on page 4 of your 
testimony, a driver of economic diversification, not only 
making aircraft, but an aerospace industry was started that 
supplies the frame of the seats and then the seat covers, and 
then the cushions, and then the cleaning of the aircraft, and 
then other aircraft precision-engineered parts, saving 
thousands of dollars for Cirrus, who have begun again to sell 
aircraft.
    But the problem is not their customer base. Customers are 
available. Customers can't get credit from the banking system 
to buy the aircraft. That is not EDA'S problem, that is the 
seizure that this economy has been in since the financial 
meltdown.
    Just a footnote to your testimony.
    Now, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. Chairman Oberstar and 
Congresswoman Capito, Members of the Committee, my name is 
Elizabeth Harman and I serve as FEMA's Assistant Administrator 
for the Grant Programs Directorate, also known as GPD. On 
behalf of Administrator Fugate, it is a privilege to appear 
before you today to update the Committee on FEMA's 
implementation of the Fire Station Construction Grant, or SCG, 
Program.
    The Recovery Act provided $210 million to support the 
program's construction and renovation efforts. Funding under 
the program will enable fire departments to replace or renovate 
unsafe or uninhabitable fire stations. These investments in 
infrastructure will enable fire departments to better protect 
communities from fire-related hazards and help ensure 
firefighter safety.
    On September 23rd, 2009, Secretary Napolitano announced the 
first group of SCG awards. A second group of awards was 
announced on February 3rd, 2010. To date, 109 awards totaling 
$189 million have been made. FEMA also expects to make 
additional grants within the next few months, including three 
awards totaling $11.9 million in the next two weeks.
    An additional 2.29 percent of the initial $210 million 
appropriated has been retained by FEMA to cover management and 
administrative costs in accordance with the Recovery Act. The 
remaining $4 million in SCG funds are being held in reserve to 
cover any budget adjustments related to previously awarded 
grants. Once all current grants are reviewed and are determined 
to be adequately funded, all remaining funds are available for 
additional awards.
    Since the passage of the Recovery Act in February 2009, GPD 
has worked to move projects forward in a timely manner. GPD has 
placed a high priority on the timely completion of all budget 
reviews, has worked with FEMA's OEHP to hasten environmental 
and historic preservation reviews, and has continually reached 
out to our grantees, including the provision of technical 
assistance, to help them in meeting these and other 
requirements they may face.
    As of today, GPD can report the following: 109 awards have 
been made; 3 will be made in the next two weeks. The 109 
current awards are funding 116 projects; 26 are ready to begin 
construction, 3 have begun construction, and 9 will start 
construction in July. Beyond these numbers, it must be 
remembered that these funds make tangible improvements in the 
health and safety of the firefighters who live and work in 
those fire stations and in the communities served by those fire 
stations.
    SCG funding will result in enhancing emergency response 
capabilities, including 45 new fire stations will be built to 
meet expanded responsibilities. Forty-two unsafe fire stations 
will be replaced and 16 will be renovated. Ten stations will be 
expanded to accommodate 24/7 coverage and 6 will be expanded to 
accommodate increased responsibilities.
    Mr. Chairman, the administration of the SCG program has not 
been without challenges. These challenges are inherent to the 
administration of any Federal grant program. Fire Station 
Construction Grant Program was the first time GPD was charged 
with the development and administration of a major construction 
grant program. This required not just the development of 
specific construction grant guidance and application materials, 
but also the development of policies, processes regarding 
environmental reviews and post-award budget reviews.
    We believe that GPD has successfully met and continues to 
meet these challenges. FEMA released the SCG grant guidance and 
application materials May 29th, 2009, 91 days after the 
Recovery Act's enactment. These 91 days included the outreach 
efforts and meetings with the fire service on the program.
    The program's application period closed July 10th, 2009. 
First grants were awarded September 23rd, 2009, 85 days after 
the close of the application period. These 85 days included 
GPD's convening and working with fire service staff peer review 
panels to assist in the application and review and selection of 
more than 6,000 applications.
    Although challenges presented themselves in the pre-award 
period, most significant challenges have been in the post-award 
period, specifically post-award budget reviews and post-award 
EHP reviews. Each of these reviews are required by Federal law, 
entail adherence to a number of statutory required processes 
and procedures, and length the time between GPD's awarding of a 
grant and a recipient's ability to access those funds.
    The budget review process determines whether grantees have 
properly explained and documented their funding requests, and 
ensures compliance with Federal laws, OMB costs and 
administrative principles, and the grantee's own requirements, 
including regulations and program guidance.
    Currently, 90 grants have cleared their budget reviews and 
19 are still in the process. The requirement for EHP reviews 
ensures that awarding agencies determines that funds are being 
spent in a manner consistent with Federal law governing the 
protection of the environment and historic structures and 
sites.
    FEMA's EHP reviews are managed by FEMA's OEHP. This office 
ensures that all FEMA grants, including SCGs, meet the 
requirements of 16 principle Federal, EHP, and Executive 
orders. Currently, 34 projects have cleared EHP reviews while 
82 are still in the review process. There have also been times 
when SCG projects have encountered locally driven issues, 
including local politics issues, project and spending approvals 
from city councils or county boards, and State and local 
procurement and contracting requirements, which grantees are 
required to address before spending funded projects can be 
initiated.
    Mr. Chairman and Ranking Member Mica and Members of the 
Committee, I firmly believe that as we move further through the 
current fiscal year, the number of SCG projects that can begin 
construction will accelerate. GPD is working with our grantees 
to help them succeed, and we want them to succeed. As we move 
forward with this initiative, we look forward to providing this 
Committee with additional information on our progress.
    This concludes my statement, and I am ready to answer any 
questions that you may have.
    Mr. Oberstar. You have squeezed a lot of words into a short 
period. Barney Frank would be proud of you. You are the only 
one I know who can speak as fast as he does. Thank you.
    Mr. Trimble, GAO. You are the cleanup batter here.
    Mr. Trimble. Exactly. Thank you.
    Mr. Oberstar. At least for this panel.
    Mr. Trimble. Mr. Chairman, Ranking Member Capito, and 
Members of the Committee, I am pleased to be here today to 
discuss our work examining selected States' use of Recovery Act 
funds for clean water projects. My statement is based on GAO's 
most recent report on the Recovery Act being issued today, 
which includes a review of the Clean Water SRF programs in 14 
States. These 14 States received approximately 50 percent of 
the $4 billion appropriated for the Clean Water SRF program.
    The 14 States we reviewed met all Recovery Act requirements 
unique to the Clean Water SRF. Specifically, these States had 
all projects under contract by the one-year deadline and took 
steps to give priority to projects that were ready to proceed 
to construction. Eighty-seven percent of these Clean Water SRF 
projects were under construction by the one-year deadline. In 
addition, all of the States in our review met or exceeded the 
50 percent additional subsidization requirement and the 20 
percent green reserve requirement.
    These States awarded nearly 80 percent of the funds as 
additional subsidization, primarily as principle forgiveness. 
About one-third of the projects addressed the green reserve 
requirement and almost all of these received additional 
subsidization. In total, the money helped fund 890 water 
projects, such as secondary and advanced treatment facilities, 
sanitary sewer overflow, and projects intended to address non-
point source pollution.
    State officials did face some challenges in meeting 
Recovery Act requirements, especially the one-year contracting 
deadline. Historically, awarding contracts in this program can 
take up to several years. The compressed time frame imposed by 
the Recovery Act, as well as the increase in number of 
applications, was challenging for some States. New Jersey, for 
example, received twice as many applications as in past years.
    State programs also had to work with applicants to explain 
new Recovery Act requirements such as Buy American and Davis-
Bacon, as well as to provide support to the nearly 50 percent 
of recipients that had never received an SRF loan before.
    Additionally, when bids came in under projected estimates, 
some States had to scramble to ensure that all Recovery Act 
funds were under contract by the one-year deadline. While these 
lower bids created a management challenge for the States, it 
also allowed some States to award Recovery Act funds to 
additional projects. Texas, for example, told us that they were 
able to fund two additional clean water projects because costs 
were lower than anticipated.
    Most of the States we reviewed took steps to target 
Recovery Act funds to low income communities, generally by 
considering a community's median household income when 
selecting projects. The States told us that at least 40 percent 
of Recovery Act funds, totaling about $787 million, went to 
projects that serve disadvantaged communities, and all of the 
recipients serving these communities were provided additional 
subsidization.
    While EPA and the States have taken additional oversight 
steps to address Recovery Act requirements, these measures may 
not be sufficient. EPA has not established requirements for 
States regarding when or how frequently a project must be 
inspected, or what steps need to be taken to assess a sub-
recipient's compliance with Recovery Act requirements.
    While some States have increased the frequency of 
inspections, we identified completed projects and those near 
completion that had never been inspected. We also found that 
most of the States in the review had not developed procedures 
to verify the accuracy of job figures reported by sub-
recipients by using supporting documentation such as certified 
payroll records.
    The combination of a large increase in program funding, 
compressed time frames, and new Recovery Act requirements 
present a significant challenge to EPA'S current oversight 
approach. In light of this, we are recommending that EPA work 
with the States to implement specific oversight procedures to 
monitor and ensure sub-recipients' compliance with the 
provisions of the Recovery Act funded Clean Water SRF program.
    Mr. Chairman, this concludes my prepared statement. I would 
be pleased to respond to any questions that you or other 
Members of the Committee might have.
    Mr. Oberstar. As usual, a very thorough GAO report and one 
that adds considerably to our understanding of the program and 
also, I think, lessons learned for the future of the SRF 
program, which I will come to in a moment.
    Mr. Schauer, did you have comments you wanted to make at 
the outset?
    Mr. Schauer. Yes, a question for the panel. Are we open for 
questions?
    Mr. Oberstar. Before we do that, I want to supplement the 
testimony given this morning. There are agencies not 
represented here under the jurisdiction of this Committee:
    MARAD, Maritime Administration received $100 million in 
funding under the Recovery Act, and of those funds, work is 
underway on 66 of the planned projects. New construction of dry 
dock facilities, 13 such projects; steel machinery work, 23 
such projects; cranes, forklifts, material handling, $21 
million for 18 projects; shipyard infrastructure improvements, 
6 projects for $6.5 million; training of maritime personnel, $6 
million; boat hoists on public facilities, ports and docks, $5 
million for four such; and port modernization for facilities 
managed by MARAD, 3 projects for $26 million. A good example is 
Steiner Shipyard in Bayou La Batre in Alabama, which has 
received funding for new launch equipment and a 400-ton boat 
hoist.
    FAA has initiated or completed work on 663 airport projects 
totaling $1.2 billion, 94 percent of their funds. In fact, FAA 
and local airport authorities were so efficient in getting 
their funds out that I reported for a groundbreaking project, 
but by the time I got there it was a ribbon cutting; they had 
already completed the project in a relatively short period of 
time because they have advantageous contracting authority, do 
airport facilities.
    Amtrak has replaced 130,000 concrete ties, restored 60 
Amfleet cars to service, 21 Superliners, 15 locomotives, and 
invested in 270 stations to improve those operations.
    Those all add up to jobs created, permanent benefits 
resulting, and a net benefit to the whole Country.
    Mr. Schauer.
    Mr. Schauer. Thank you, Mr. Chairman, for this opportunity.
    I want to talk about the issue of American jobs. I 
represent the part of the State of Michigan with the highest 
unemployment rate in the Country of 14 percent, and I was very 
supportive of the Buy American provision that was in the 
American Recovery and Reinvestment Act.
    First, Mr. Trimble, you touched on that in your testimony. 
Can you speak briefly to compliance across agencies with regard 
to Buy American provisions?
    Mr. Trimble. Yes. Well, my testimony today is limited to 
the SRF program, so I am not sure I can speak to the other 
agencies. In regard to the Buy America provisions, the States 
that we did our work in mentioned that it is a challenge, but 
one that they could meet. Where we saw issues or concerns was 
in the internal controls to ensure those requirements are met 
at the sub-recipient level. While the States were taking 
actions and the requirements were clear, our recommendation 
speaks to the need for a more uniform set of compliance tools 
to make sure that it is happening at the sub-recipient level.
    For example, one project in Arizona that the team visited, 
the project was already under construction. They were visiting 
the project site, they were looking at a water meter. On the 
back of the water meter was stamped ``Made in Mexico''. When 
the team raised that, the State saw immediately the concern, 
took action, and actually went back and replaced about 100 or 
so meters that were in question.
    On that issue, again, there is a commitment there to do the 
right thing. I think what we are speaking to is the need for 
more centralized requirements from EPA to the States on how 
they need to approach sub-recipient monitoring to ensure all of 
these requirements are met.
    Mr. Schauer. Thank you.
    Mr. Chairman, we need to make sure that each of these 
agencies is fully enforcing those Buy American provisions. I 
will be bringing to the Congress an issue that I am working 
with the DOE, Department of Energy on, a lighting contractor 
that manufactures a variety of industrial lighting and 
municipal projects, has lost a contract to another company that 
provided a lighting fixture that said ``Made in America.'' They 
had applied that ``Made in America'' sticker over a sticker 
that said ``Made in China.'' Those products actually came from 
China. The people I represent are very upset, as am I, about 
their tax dollars supporting jobs being created in China, 
rather than jobs here.
    I have a question, Ms. Walsh, on that topic. My office has 
been working with the GSA to try to change the eligibility for 
photovoltaic roofing materials. We found that the eligibility 
requirement actually favors companies in China. There is a 
company in Michigan called Unisolar. They have testified before 
this Committee. They have a technology that is very efficient, 
doesn't meet the GSA requirements.
    So I want to put you on notice about that concern that I 
have, but actually ask you to address. In our Committee 
information it indicates that GSA has used its appropriation to 
install 78 roofs, including 68 photovoltaic arrays for roofs, 
and wondered if you can talk about those 6 photovoltaic arrays 
on these roofing projects and whether that was material from 
China or material from companies in the U.S.
    Ms. Walsh. We anticipate that by the end of the recovery 
program there will be 68 PV roofs. I will have to get back to 
you on where the materials specifically came from on those 
projects.
    Mr. Schauer. I would ask you to get back to me and get back 
to this Committee as a whole. Again, it is our intent that we 
are supporting and creating American jobs, and fully complying 
with Buy American provisions and making sure that eligibility 
requirements don't disadvantage U.S. companies.
    Ms. Walsh. Yes, sir.
    Mr. Schauer. Thank you, Mr. Chairman.
    Mr. Oberstar. Submit that material to the full Committee 
and it will be distributed to Members on both sides.
    Ms. Walsh. Yes, sir.
    Mr. Oberstar. Mrs. Schmidt.
    Mrs. Schmidt. Thank you, Mr. Chairman.
    Mr. Salt, I apologize if you had this already in your 
testimony, but I have a rather lengthy question. Customs and 
Border Protection, along with the GSA and the Corps, plan to 
spend $7 million, originally obligated at $15.7 million in 
stimulus funds, to renovate the Morris Line Port of Entry, the 
border station on the U.S.-Canadian border in Vermont.
    The border station, which sees 2.5 cars an hour, or about 
40 cars a day, is located in the middle of a Vermont family's 
dairy farm, and the owners of the dairy farm were told by the 
CBP they must sell part of the farm for $39,500 or else the 
farm will be condemned.
    First off, I question the value of that and I do hope that 
the right comps were used, and also factor in the fact that 
they will probably use the farm because this doesn't sound like 
enough money when you talk a family farm and you destroy it.
    The family and a representative, I believe, will be here, 
does not want to sell and they believe they will go out of 
business if they lose the land. Can you explain the Corps' role 
in this situation and what is to be done to prevent this 
condemnation which, contrary to the stimulus, will actually put 
people out of work?
    Would you please tell me what kind of comps you used to 
evaluate the $39,000 you are going to offer these people? And 
did you look at those comps in relationship to the fact that it 
will probably destroy the farm and put them out of business? 
Should the port of entry stay opened or closed? Is this 
specific property necessary, and how much property is actually 
necessary, and can you locate it somewhere else?
    Sorry for the lengthy question.
    Mr. Oberstar. Before the Secretary responds, that question 
is also going to be addressed by a witness from Vermont, the 
farmer on whose property, a portion of whose property this 
project is to be undertaken. I would note that the funds are 
stimulus monies. This issue obviously came to my attention as 
well as yours and Mr. Mica. It is stimulus funding through the 
Customs and Border Patrol, not under the jurisdiction of our 
Committee. The Corps is simply the leasing agent or the 
contracting agent, not the initiating agent; and I think that 
there is a serious problem here.
    And we will hear in the next panel from the witness on this 
subject, but I think that there is a way. There is such a short 
distance between the property in question and the established 
border patrol station that Customs and Border Protection ought 
to expand the existing facility instead of taking property on a 
new one. I know that the Senator from Vermont and the House 
Member from Vermont are both very concerned about it.
    Mr. Salt, if you have further observations on this at this 
point?
    Mr. Salt. The one question that you asked was what is the 
Corps' involvement in this. The Customs and Border Protection 
Agency did ask the Corps, as other agencies have, to provide 
certain services, and the Corps is providing the real estate 
support for that project. But as to the requirements and all of 
the specifics of your question, I would refer those to the 
Customs and Border Protection Agency, as the Chairman 
suggested. It is their project and we are only providing real 
estate support to them.
    Mr. Oberstar. The Corps is not the initiating agency on 
this project, but we are going to pursue this further in the 
next panel.
    Mrs. Schmidt. Thank you, Mr. Chairman. And just as a 
question, so who decided what value they were going to give 
this dairy farmer? Who made the determination for the monetary 
consideration?
    And I guess, Mr. Chairman, if I can digress.
    Mr. Oberstar. Certainly.
    Mrs. Schmidt. In my background, in my past life, I had to 
deal with eminent domain issues, and almost always I found, in 
my personal experience, they never gave the property owner 
their just due for the amount that the Government wanted to 
give. So I have kind of a prejudiced notion on the $39,000 just 
from my past. So this might be a legitimate amount; it may not 
be a legitimate amount. I don't know. I just want to know who 
set the value so I can ask the question how did they arrive at 
that value.
    Mr. Salt. If I can get back to you on that.
    Mrs. Schmidt. Thank you. Appreciate it.
    Thank you, Mr. Chairman.
    Mr. Oberstar. It is interesting that you have that 
experience in your resume. Did you have highway project 
experience as well?
    Mrs. Schmidt. Mr. Chairman, I was a township trustee, so I 
dealt with it with the Ohio Department of Transportation and 
citizens of my township. And I was a township trustee for 11 
years, so I had to advocate for my citizens on a fairly regular 
basis when we were doing some road widening projects in our 
township.
    Mr. Oberstar. There were a number of such concerns in the 
early days of the interstate highway program, States being 
heavy-handed in dealing with property owners, the result of 
which was this Committee initiated and moved through to 
enactment the Uniform Relocation Act, which provides a very 
rigorous process by which property owners get fair treatment, 
fair compensation, and the opportunity, even if the highway 
does not directly take their property, but is close enough so 
that their business owner's business would be diverted, they 
have a right to just compensation, fair market value, and not 
have to proceed through court to be compensated. I would like 
to hear more about your experience at another time.
    Mrs. Schmidt. We will talk later. Thank you.
    Mr. Oberstar. Mr. Hare was here earliest, so I will go to 
him at this point.
    Mr. Hare. Thank you, Mr. Chairman.
    Mr. Salt, in your testimony you state that it is well known 
that the Corps has had a backlog of important infrastructure 
projects, many of these structures, including some that are 
over 50 years old. Just a question, then a comment. Well, I 
will do the question first.
    To what extent has the Recovery Act addressed some of this 
backlog? In my district, from west central Illinois, we have 
seven locks, and you probably are aware that most of those are 
in very poor shape. And we are trying to figure out how we are 
going to be able to do that and fix some of these, because I 
went to one of the locks and the lock master asked me if I was 
left-handed or right-handed. I told him I was right-handed.
    He said, well, I want you to hit this portion with your 
left hand, your left fist; and I did and a chunk of concrete 
the size of a football came off. These locks, it is not really 
a question of if they are going to fail; the question is when 
are they going to fail, because they are really in bad shape. 
And if they fail, we are going to have a serious problem.
    So I guess I am putting a pitch and I realize you don't 
have all the money, but to what extent has this Recovery Act 
and the money that we gave to you folks addressed some of these 
aging infrastructure things you guys are in charge of?
    Mr. Salt. The Recovery Act was enormously important for us, 
particularly with respect to our navigation infrastructure. I 
think we tend to focus on the new construction, but about half 
of our Recovery Act funds were for operations and maintenance, 
which was over $2 billion, and allowed us to address those 
needs throughout the Country.
    As I said in my oral testimony, we were able to address 284 
navigation projects, and over 300 flood risk reduction 
projects. Throughout the Country, both with respect to the 
Recovery Act and with respect to our general appropriations, 
these are becoming our biggest priority for safety issues and 
for the performance of the project. These are the priorities 
that we are focusing on.
    Mr. Hare. Well, let me just say I agree with the Chairman 
and, for the record, the Corps does a tremendous job given the 
resources. We need to give you more so that what you do better 
than probably anybody is to be able to do more of, and at some 
point we are going to have to try to address this situation of 
how do we come up with the funds necessary to do this. But I 
just want to let you know for the record that I have had the 
opportunity to work with the Corps and they do wonderful things 
for people. So I just wanted you to know that.
    Ms. Harman, I just had a question, if I could, for you. 
These recovery funds are meant to be used quickly and 
efficiently. What steps is FEMA taking to work with the local 
communities to encourage them to move towards construction? And 
the second part of that is how are you working with them to 
expedite the internal processes?
    Ms. Harman. With regard to all of our grantees, we have 
done an enormous amount of work to help them through this 
process and understand what this process is. There were more 
than 6,000 applications, and there are 109 awardees, so the 109 
is a fairly small amount compared to the 20,000 open grants 
that we actually manage each year.
    So the nice part of that is that we do have a dedicated 
staff with that small number of grants that are able to provide 
technical assistance, particularly with the environmental 
historic process, which seems to be the long, laborious process 
required by Federal law for us to go through, but it is an eye-
opening experience, I think, for the first responders that have 
applied for this money, and we are shovel-ready at the time of 
application. Some of them had engineering drawings, but as soon 
as they accepted that Federal dollar, they now have to go 
through the Federal environmental historic preservation 
section. So a lot of education, a lot of technical assistance 
going on.
    With regard to that process of environmental historic 
preservation, we work closely with FEMA's Office of 
Environmental Historic Preservation. The only part we can 
really narrow, that I have control over, is the public comment 
period, which is normally 30 days. We reduced it to 15.
    But aside from that, we have used the M&A money that we 
have to beef up contractors to sort of triage, geez, is this 
going to be a renovation project or is this going to be a full 
construction project? Renovation ones sort of get more 
categorical exclusions, which help get through the process a 
little quicker. Those that are pushed for full EAs, we have 
assistance from our FEMA regions to help us out with that. So 
the process is a long arduous process. If I could make it go 
any quicker, I could, but I think I would be breaking the law 
if I did.
    Mr. Hare. We don't want you to do that.
    Thank you, Mr. Chairman.
    Ms. Harman. I don't want to do that.
    Ms. Norton. [Presiding] The gentleman's time has expired.
    Mrs. Capito.
    Mrs. Capito. Thank you, Madam Chair.
    Ms. Walsh, I would like to ask you a question. You 
mentioned the work that you are doing on the Federal buildings 
and the green initiatives that you have moved forward with with 
the stimulus dollars. We have a courthouse in my hometown, 
Charleston, West Virginia, where some of that work is being 
done, I think it is $4.696 million.
    And you mentioned also in your statement that you are 
looking at returns on investments. It is my understanding that 
solar panels are being put on the roof of that courthouse, and 
I would like to know what calculation on the return on the 
investment of the $4.696 million, what you calculate savings, 
energy savings will be for that particular building, or at 
least a building similar to that, and how you come to that 
calculation? When will it begin paying back?
    Ms. Walsh. I am going to have to get back to you on the 
specific numbers that we are using for that project, for the 
calculations.
    Mrs. Capito. When you are calculating the cost, is that a 
make or break figure for you, if you are going to get return on 
your investment or not, when you are deciding which buildings 
to place solar panels or green? Because that is not a very old 
building is one of the reasons I am interested in it.
    Ms. Walsh. We need to look at the the return on investment, 
and look at it in the context of the whole project and the 
overall contribution to the building. But as far as the actual 
calculations, I am going to have to apologize, I don't know the 
specifics.
    Mrs. Capito. That is OK. That is understandable.
    Ms. Walsh. We will get back to the Committee with that 
information.
    Mrs. Capito. In the general sense, do you make that part of 
your calculation, as to whether it actually is going to be an 
energy savings bottom line on that particular building when you 
are deciding to green the building? Are you making that as a 
calculation, that you are going to get a return on your 
investment? Is that a factor that is calculated in the decision 
to go forward?
    Ms. Walsh. We do evaluate the estimated return on our 
investments. Also, we are developing a database to track and 
record all of the high performance energy elements that we are 
installing. Once these features are installed, constructed and 
operating, we plan to verify energy assumptions modeling.
    Mrs. Capito. So basically it is a more look back rather 
than a look forward. You can't calculate that at this point?
    Ms. Walsh. We do calculate expected performance based on 
energy modeling but until the building is operating and we see 
actual consumption, we dont know definitively.
    Mrs. Capito. When you are soliciting bids for a building, a 
courthouse of that magnitude, have you shortened the time frame 
on that or what are you finding? Are you finding a lot of local 
contractors bidding on those projects? Not that one 
specifically. And are they able to meet the demands of a quick 
turnaround? Because I assume the work is being done quicker 
than maybe normally would be done under a GSA contract.
    Ms. Walsh. We do all the recovery work in accordance with 
our procurement requirements.
    Mrs. Capito. So you haven't changed that for this.
    Ms. Walsh. Right. But we are expediting all of our project 
awards in terms of reducing as much time as possible before 
solicitations go out. And, once contracts are awarded, we are 
accelerating outlays by identifying disinct elements that can 
be performed, completed, and paid for, such as site and 
foundation work. And with the smaller projects we are seeing 
more local contractors involved in those projects.
    Mrs. Capito. Let me ask you another question along the line 
of courthouses. The GAO report came out, I believe yesterday, 
and among one of their findings was that a lot of the 
courthouses that had been built over the last 10 years were 
basically overbuilt, to the tune of about you could have had 
nine more courthouses, too many courtrooms, not taking into 
consideration courtroom sharing. It was pretty critical and 
said the estimate cost to construct this extra space, when 
adjusted to 2010 dollars, this is from the GAO report, is 
approximately $835 million, and the annual cost to keep them 
rented and renovated and maintained is another $51 million.
    Having said all that, why are we building new courthouses 
or adding to existing courthouses when this report shows that 
we have overbuilt in this particular area? What is your 
response to this report?
    Ms. Walsh. I have not had an opportunity to review the 
report yet. In terms of the projects we selected, we chose 
projects that would enable us to put people back to work as 
quickly as possible and create jobs, as well as to transform 
our inventory into high performance green buildings. And in 
terms of the courthouses, those were projects that we could get 
going relatively quickly, and they were in the works.
    Mrs. Capito. My time is up. Thank you.
    Ms. Norton. Thank you, Mrs. Capito. I particularly thank 
you for your question on courthouses. I am Chair of the 
Subcommittee and the full Committee, both sides, all four of 
us, the Subcommittee as well as the Chair and the Ranking 
Member, that requested that report. Those courthouses, I 
believe, were on the list to be done and could be done quickly.
    But her question is a powerful question. Her numbers are 
exactly correct. Because the GSA, frankly, was not doing its 
oversight job and because the courts had apparently seized 
control of a Federal construction program, acting as if Article 
3 judges were also in charge of construction. This was an 
overbuilt program. We are pulling it back from the judges. This 
is an age-old problem. I have only been on the Committee 20 
years, and it has been out there hanging all this time until 
this GAO report had straightened it out.
    To Mrs. Capito, whose question I appreciate, I want to say 
that the Subcommittee will not be recommending any new 
courthouses until such time as there has been a demonstration 
that all of this overbuilding and overspending--and I see my 
Ranking Member, who was as ardent in his questioning on this 
matter as I was.
    There is no light between the minority and the majority on 
spending almost $1 billion in overbuilding courthouses, against 
the authorized amount of the Congress of the United States. I 
hate to say it, but in this instance the courts were lawless, 
and they are the ones who, of course, enforce the law and are 
supposed to abide by the law.
    I want to just take my time to ask just a few questions.
    Ms. Harman, I think, for good reason, Members have been 
concerned about the firehouse construction. There is broad 
support, again on both sides, for the firehouse program, and 
that is why we put money in there for firehouses. It does seem 
to me that this program was different from other fire grants 
and was different from other Recovery Act programs. For 
example, did these firehouses have to be peer reviewed by 
firefighters themselves?
    Ms. Harman. Yes, they were. They followed the same peer 
review model that is used for the AFGE grants, as well as the 
SAFER grants. There was some screening done pre-going to the 
peer review panel because of the number, 6,000, but each award 
that was given and each application, for the most part, that 
went to peer review panel was reviewed by a minimum of three 
peer reviewers.
    Ms. Norton. Were there other ways in which these grants did 
not get going as soon as other grants did? And is it true that 
you only have five firehouse projects begun in construction?
    Ms. Harman. There are currently three under construction.
    Ms. Norton. I mean, three. I am sorry.
    Ms. Harman. Yes. Twenty-six are ready at any moment. All 
the EHPs are done, all the budget review is done. You know, we 
are getting through the budget review process, of course, the 
EHP process, but I don't think we anticipated the almost 
opposition, if I can, at the local level. I will give you an 
example from a fire chief.
    Ms. Norton. Opposition to?
    Ms. Harman. To receiving the grant. It is an election year. 
I was on the phone with Chief Steward from Rolling Meadows, 
Illinois just last week. Our office here is doing a great job 
trying to say, hey, we gave you the award, could you please 
accept it? At the time of application there was one city 
council in place; at the time of award there was a new city 
council in place. The award was for $1 million. The city 
offered to also pony up $800,000, which was not necessary 
because there was no matching requirements. And it sort of 
became this battle between the fire chief pushing----
    Ms. Norton. What did they want to put $800,000 up for, 
then?
    Ms. Harman. They actually thought, well, if we don't take 
the $1 million award, we are saving $800,000.
    Ms. Norton. Sorry? If we don't take it, because they 
thought it would only cost----
    Ms. Harman. Right.
    Ms. Norton. Well, why didn't they then take it and ask that 
it be used for another purpose?
    Ms. Harman. Well, they do have to build a fire station with 
it, but I think they had a grander scheme of the fire station. 
But our staff has done such a job of working with them. I 
actually have a letter from Chief Steward expressing his 
concern in the amount of work that has gone in to just getting 
on the agenda of the city council; being on the agenda, being 
taken off, waiting two months to get back on a city agenda just 
to say, hey, can we accept this award?
    Our staff finally said, look, if you don't accept the 
award, we are going to go to the next person on the list. Can 
you help us out? How can we help you get the fire station that 
you have applied for and competed for and won?
    And the fire chief is gung ho for it, so we put a time line 
on, and there was actually resistance from the city council 
saying, well, FEMA won't do that. You know, we got the award; 
they wouldn't put a restriction on it saying if we don't do it. 
Finally, our staff had to push even further. They have accepted 
the award but then, again, our fire chief had to get on the 
agenda for the city council just to contract----
    Ms. Norton. Well, Ms. Harman, I think we get it. But in a 
real sense, although more extreme, more drawn out, your 
predicament does illustrate what we go through in the States. 
The States don't operate at our command, even though they are 
very glad to get our money, and we do have to respect their 
processes. On the other hand, the Chairman has been real clear 
you can pass on. We are going to pass right over you if in fact 
you can't do it. But you can see Members are concerned about 
this matter.
    Ms. Harman. Absolutely.
    Ms. Norton. I have a question for Mr. Fernandez.
    Mr. Fernandez, the agency has lots of support on this 
panel, and one of the reasons it enjoys this support is that 
EDA has been in the forefront of investing in incubators. We 
note that although the EDA'S reauthorization proposal has a 
loan guarantee and grant program focused on science and 
research parks, there appear to be no incubators among your 
stimulus projects. Why is that?
    Mr. Fernandez. Actually, I believe there were 13 projects 
that supported incubation, 4 specific----
    Ms. Norton. I am talking about, of course, in your 
stimulus----
    Mr. Fernandez. In the Recovery Act.
    Ms. Norton. Yes.
    Mr. Fernandez. And that included I know in Scottsburg, 
Indiana, we funded a technology incubator.
    Ms. Norton. With stimulus funds?
    Mr. Fernandez. Yes. It was a $4.3 million investment for 
manufacturing technology incubation. I believe there were three 
other incubators. I could get you a specific list of the actual 
incubator projects, if you would like that.
    Ms. Norton. I may have this backwards. You do have them in 
your stimulus or ARRA funding, but not in your reauthorization. 
And why is that?
    Mr. Fernandez. I don't have the language in front of me. I 
know there is some additional language in what we had proposed 
to the Congress to bring some clarity on incubation. I believe 
the rationale is that we already have tremendous authority and 
flexibility within our Public Works program, as well as our 
Economic Adjustment Assistance program to invest in incubators, 
and, as you know, we have invested in a number of incubators 
over the years, so we certainly don't----
    Ms. Norton. So you are saying that incubators would in fact 
be part of your existing programs? So you don't propose not to 
go ahead with the incubator program?
    Mr. Fernandez. Correct. And, again, I apologize, I can't 
remember off the top of my head. I think there is some language 
that we suggested to give us even some flexibility on some 
operating support for EDA-funded incubation to ensure that they 
are even stronger and more successful.
    Ms. Norton. Mr. Fernandez, I just want to bring to the 
attention of the full Committee something that we understand 
you are going to be doing and that is, in its own way, akin to 
our own process that we pass the money on to someone else if 
you don't in fact use it rapidly. As I understand it, you are 
going to proceed to use a process that has proved very 
effective in the Delta Regional----
    Mr. Fernandez. Regional Commission.
    Ms. Norton.--Commission. I am sorry, the Delta Regional 
Commission. And that is a kind of clawback. And, again, to the 
full Committee, this is the first time I have ever seen this 
done effectively, but if the private entity does not produce 
the jobs it has indicated it will produce, then the Delta 
Commission has a kind of payback. Of course, contingencies are 
allowed because there can be reasons why a project does not 
produce jobs. And, of course, there is some negotiation.
    But by having in place this clawback, that you have to give 
back some of the money, in fact, the Delta Commission, who 
testified before us, was able to show that this has been a very 
effective way to get people to be up-front and clear about 
promising and not over-promising. You indicated you would be 
spreading that, and I would like to know when and how.
    Mr. Fernandez. Yes. As you and I have discussed this, we 
are interested in how the Delta Commission administers their 
clawback. There are some complexities that are a little bit 
different for our agency in terms of the intermediaries that we 
invest in or co-invest in have much more direct control over 
the ultimate job creator that is built around a particular 
investment.
    So there is some complexity, but we are very interested in 
looking at how we can embed those types of provisions. We do 
have authority today and a tremendous amount of ability to hold 
folks accountable for the investments of taxpayer dollars 
already, and where there are cases where they are not moving 
forward with projects as agreed to, we have the ability to 
recapture those dollars under existing authority.
    The clawback provision, I think, the other way to look at 
it, as well, as part of this process improvement initiative 
that I mentioned in my testimony. I think we have to look at 
what we are doing at the front end as well, so the depth of due 
diligence that we engage in as part of an application process 
should be really very vigorous so that, in fact, we are 
ensuring success of the investments at the front end. But if 
folks don't meet their obligation, they certainly should be 
held accountable.
    Ms. Norton. Yes. And people at the front end will negotiate 
very carefully about what they promise and will tend to over-
promise less.
    Ms. Walsh, I won't ask you for answers to these questions, 
but I would like to have the answers to these questions within 
the next 14 days. You have testified that the largest project 
ever attempted by the GSA and the largest since the Pentagon is 
underway here under the jurisdiction of the GSA and is underway 
here in the District of Columbia.
    I do have reports on a biweekly basis on how many jobs are 
being created. There has been an apprenticeship program, and 
these funds, I understand, have been fully allocated, and I 
commend GSA on that; allocated throughout the Country. And 
because this project is so big and because there are 15 other 
projects in the District of Columbia, again, because it is the 
seat of government and there are many government buildings 
here, these projects are now underway using apprentices and 
pre-apprentices.
    We would like to have some idea of how many apprentices, 
just let's say apprentices, and that includes pre-apprentices, 
of course, and perhaps they should be disaggregated, because 
pre-apprentices are people who are less trained, they don't 
have the full apprentice status.
    Since this money is out there and people will expect that 
since we put money out there, that they will in fact be hired, 
how many apprentices are contemplated to actually get positions 
in jobs in the jurisdictions where you have awarded the money? 
How many would you calculate? I understand that there could be 
differences. How many apprentices will be hired? How many pre-
apprentices will be hired? The $3 million in money out there 
for distribution to a number of districts of this money.
    We don't want to leave people thinking that everybody who 
thinks of himself as a pre-apprentice or apprentice is going to 
find a job in some kind of Federal program, and the only way to 
do that is to be up front with people about the number of jobs 
that are anticipated. And I wish you would get back to me with 
that.
    And I am very interested in the 15 projects in the District 
of Columbia. These are the big green projects here, where you 
have old Federal buildings that nobody has looked at probably 
since they were put up during the New Deal, when Franklin 
Delano Roosevelt did precisely what we are doing. He said this 
is the time to build the infrastructure for the Federal 
Government.
    So if you look down on Constitution Avenue and Pennsylvania 
Avenue, you will see 1930-some dates on all those buildings. 
You are doing massive changes in some of those buildings, and 
the kinds of changes that we need most because they are going 
to save us money in air conditioning and heating and other 
energy conservation.
    Would you, within two weeks, get to the Chair and to me a 
status report on the status of all 15 projects in the District 
of Columbia; where they are located, at what stage of 
construction they are; how many jobs? I won't get to 
apprentices there, I am interested in how many jobs have been 
provided in what specific categories and how many jobs are 
contemplated to be provided in this bunch of buildings located 
in the Nation's capital?
    Thank you'very much.
    Ms. Walsh. Yes, ma'am, we will get back to you.
    Ms. Norton. Next, Mr. Cao. Do you have any questions, Mr. 
Cao?
    Mr. Cao. I do, Madam Chair, and thank you'very much.
    Madam Chair, you know, you and I, for the past year and a 
half, we have been very frustrated with Federal agencies in 
regards to the rebuilding of New Orleans, and obviously one of 
the agencies that we were frustrated with was the Army Corps of 
Engineers. And again we are dealing with an emergency in the 
Gulf, and it seems to me that the bureaucracy that is so 
inherent in the structure of the Army Corps is impeding their 
ability to make very quick decisions.
    On May 11th of this year, the governor of Louisiana 
requested an emergency authorization to construct a sand 
barrier along our Barrier Islands to provide a critical 
structure that will block the flow of oil into our sensitive 
waters and estuaries. And it has been over two weeks and the 
Army Corps of Engineers has not provided a decision with 
respect to the permit, and one of the reasons that they gave 
was they had to do an environmental study.
    Now, if I were a layperson looking at the Gulf of Mexico 
and the oil is floating in, it seems to me that the impact from 
the oil, the oil threatens to destroy the way of life, the 
marshes, the estuaries in the Gulf, why are we spending time to 
do an environmental impact study, when the oil threatens to 
destroy everything? So it seems to me that the bureaucracy of 
the Army Corps of Engineers is impeding their ability to make 
very common sense decisions.
    So my question to you, Secretary Salt, is what is the 
delay? I really don't understand.
    Mr. Salt. In light of the current circumstances, the Corps 
is using its emergency authorities and is using its emergency 
protocols to consider the request of the Governor. I think you 
are correct that the Governor first put forward his proposal on 
the 11th of May. Just last Friday, though, the State amended 
its request and asked us to focus on a different, smaller set 
of sand berms. The Corps is proceeding with its analysis on 
that and expects a decision----
    Mr. Cao. But it seems to me that the longer we delay, even 
a day, two days, three days, can lead to very devastating 
effects to the Gulf Coast region, especially to the marshes and 
to the estuaries. How hard is it to make a decision with 
respect to allowing the berms to be built or not? It seems to 
me that any environmental impact that comes from the 
construction of this berm can be addressed at a later date. The 
priority now is to build it to keep the oil out. And the answer 
to the question is either a yes or a no. And I don't know why 
it takes a week to make a decision. I can make one right now.
    Mr. Salt. This is probably the wrong forum to discuss that 
question. I would just say that it has been my experience, and 
in my understanding in this case, that the Corps has been 
processing this most recent permit request very quickly. 
Picking up on your point, under the Corps' protocols, the 
environmental assessments it is doing are what I would call 
screening assessments, and answering the questions like what 
are the protocols if there is oil in the sand and----
    Mr. Cao. If I can inquire further, I believe the President 
has declared a state of emergency to the fishing industry. 
Wouldn't that state of emergency allow the Corps to waive some 
of these protocols to make very expedient decisions?
    Mr. Salt. Sir, they do. They don't waive their protocols, 
but they have a modified set of protocols that allows them to 
make an emergency decision that then is followed with a more 
formal process that begins in 30 days. And again, the permit 
application that the Corps is now considering was received on 
Friday by the Corps. It is now in the final stages of the 
decision process and I expect a decision very shortly.
    Mr. Cao. Madam Chair, again, it just deals with this very 
frustrating bureaucracy that we have to deal with through the 
Army Corps of Engineers, and I believe that we have to find 
ways in order to streamline their decision making to allow them 
to provide us with very quick decisions in case of emergencies 
in the future.
    And this is a question to the panel. Are there any 
resources unallocated from the Recovery Act that we can somehow 
redirect to help the Gulf regions to address the oil spill?
    Mr. Hooks. As far as EPA'S resources are concerned, 100 
percent of our resources have already been obligated. We 
actually don't have any additional resources.
    Mr. Cao. Mr. Salt?
    Mr. Salt. I would say right now I am not aware of any 
requirements that are unfunded. I think we are proceeding with 
general revenues to do the work. You mentioned the permitting 
issue. Right now, our primary involvement is to expedite the 
permitting along the lines of your questions earlier.
    Mr. Cao. Ms. Walsh?
    Ms. Walsh. We have allocated all of our funds, sir.
    Mr. Cao. Basically, that is the same answer from everyone?
    Mr. Fernandez. No.
    Mr. Cao. OK, good.
    Mr. Fernandez. I have a slightly different answer. We are, 
as you know, Congressman, we have deployed staff from our 
regional offices out of Austin, as well as Atlanta, to provide 
technical assistance and begin coordinating with the coastal 
community leadership.
    We believe we have some minimal modest amount of funds that 
may be available to help out of existing fiscal year. But we 
are talking a few hundred thousand dollars, not millions, so it 
is a modest amount. But, as you know, the President has 
proposed a $5 million supplemental appropriation for EDA to 
become much more engaged in the recovery efforts, and we hope 
that the Congress will act on that request.
    Mr. Cao. Thank you'very much.
    I yield back.
    Ms. Norton. The gentleman is in overtime and there is going 
to be a bell soon. I will try to get as many Members as 
possible.
    Mr. Johnson.
    Oh, excuse me, Mr. Fernandez, I understand that you have to 
leave to go to NASA in Florida. You are excused.
    Mr. Johnson?
    Mr. Johnson. Thank you, Madam Chair. And, Madam Chair, with 
all due respect, I would be remiss as Chair of the Judiciary 
Committee's Subcommittee on Courts and Competition Policy, were 
I not to speak out to voice my disagreement with the conclusory 
allegations against our Judicial Branch of Government with 
respect to courthouse construction projects, the recent 
courthouse construction projects.
    Preliminary findings by GAO have been disputed by GSA, 
which has primary authority in this area, about the cost of 
overbuilding to the tune of about $600 million. It is alleged 
in the GAO report 800 and some odd million dollars was misspent 
for overbuilding that was not authorized by the Congress. GSA 
disputes that to the tune of about $200 million that they would 
admit to. Of course, $200 million is a lot of money Eight 
hundred million is a lot more.
    And there were some reasonable explanations given for the 
increased expenditures, along with an agreement that, in the 
future, any overruns, if you will, will be, if they are 10 
percent or more of the price which Congress approved, then the 
GSA would come back to Congress for authority.
    And again I want to emphasize that the Judicial Branch 
participated with the GSA insofar as their projected need for 
additional courthouse space based on judgeships that were 
recommended by the Judicial Conference, which ended up not 
being approved by Congress, and those judgeships were approved 
and courthouse construction done, these estimates done in 
excess of 10 years ago. So I think there are a number of 
reasons for these overruns, but they are not certainly 
attributable to Judicial Branch misconduct.
    But I do have a couple of questions. I have one city in my 
district. The name of that city is Pine Lake. It is the suburbs 
of Atlanta, Georgia. That project that the city has spent money 
on, it is a Clean Water Revolving Fund project. The project was 
shovel-ready, it was under contract by the deadlines, but yet 
the State of Georgia refused to fund the project.
    What I would like to know is what is the decision-making 
process insofar as State recommendations and local readiness? 
What kind of discretion does the State have and is it such 
discretion that would allow a project to not be funded for 
reasons other than the merits of the project itself?
    Mr. Hooks. In terms of the Clean Water SRF program, the 
State almost has 100 percent discretion in terms of what 
projects they actually select. Before the State ultimately 
makes their decisions, we do have an opportunity to evaluate 
what is termed their intended use plan, what is the description 
of the types of projects that they intend to fund on an annual 
basis. But once we approve that plan, at that point in time it 
is the State's determination on which projects will ultimately 
be funded.
    Mr. Johnson. Thank you.
    And for all of the panelists, I would like for you to 
respond. I sent a letter on April 21st to the U.S. Department 
of Transportation, which was signed by 15 other Members of 
Congress, expressing concern over disadvantaged business 
participation in Recovery Act programs or projects. This letter 
was the result of media reports indicating that as little as 
two and as much as six percent of Recovery Act funds spent by 
the State Departments of Transportation went to disadvantaged 
businesses. I think we would all agree that these numbers are 
disturbingly low.
    Now, I know that DOT is not here today; however, I would 
like to ask the panel how your agencies have awarded contracts 
and if you can provide details on disadvantaged businesses' 
participation in your contracts.
    Mr. Hooks. Mr. Congressman, I can speak primarily to the 
contract funds that we obligated under stimulus, which was 
primarily in our Superfund program. The majority of our money 
under the Clean Water and Drinking Water SRF programs, $6 
billion out of the $7.2 we received went out in the form of 
grants.
    But in terms of our contracts, for our small disadvantaged 
businesses, we have a goal of 10.5 percent. We are at 12.4 
percent. For our 8A firms, we are at 5.4 percent; our women-
owned businesses, 1.7 percent; Hub Zone, 2.6 percent; and our 
service disabled vets, 11.2 percent. So our small business 
goals were at 56.5 percent overall. I think we have done a 
pretty good job in terms of Superfund. But, again, as I said 
earlier, we don't have the ability to direct the subgrants for 
our SRF programs.
    Mr. Johnson. Thank you, Mr. Hooks.
    Ms. Norton. The gentleman's time has expired. You are two 
minutes over your time, Mr. Johnson.
    Mr. Johnson. Thank you, Madam Chair.
    Ms. Norton. Mr. Johnson, I am pleased to award you the time 
and understand your concern in the first part of your remarks 
with the GSA report. I just want to say again that our concern 
is with overspending no matter who overspends.
    But I am sure GSA and the courts will be pleased that there 
is at least one defender to the definitive GAO report showing 
$1 billion in overspending by the courts, especially in light 
of the fact there is 9.9 percent unemployment in this Country 
today, and a lot of us would rather have seen that money go 
into jobs and economic development where there is not 
overspending.
    I am compelled to make that point, since even the GSA was 
not willing to defend a great deal of the overspending. It had 
to defend its part of the overspending. And even the courts 
conceded that there had been overspending. I did not want to, 
in fact, offer an apologia for what amounted to lawless 
overspending because the overspending was of the authorized 
amount that the Congress of the United States had voted, and 
the last people who ought to be disobeying the law are judges 
or the judiciary.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you'very much, Madam Chairwoman. I 
want to just first emphasize, as you said before, that there is 
no light between us, that you and I, and I would the Committee 
and clearly your Subcommittee, is totally united on these 
issues, and I want to thank you for your leadership there.
    Two questions to Ms. Walsh, if I may. GSA owns and 
constructs a number of border stations. I am trying to find out 
if GSA is exercising its independent judgment and expertise, 
and I am going to throw out one specific issue, for example. 
Does it make sense to have an eight-lane border station, is 
that appropriate, eight lanes, for a crossing that sees less 
than 40 cars per day? If you were looking at it and you had a 
crossing that had less than 40 cars a day, would your standard 
be eight lanes?
    Ms. Walsh. We work with DHS to determine the requirements 
for each land port of entry.
    Mr. Diaz-Balart. I know, but I am asking is eight lanes for 
40 cars? Under any standards, that sounds like government out 
of control. Eight lanes, does it make sense? Is that the kind 
of standard that you would usually use for the ones that you 
own and run and construct, eight lanes for less than 40 cars, 
for a station that handles less than 40 cars a day? Does that 
make any sense to you? Or, speaking of overbuilding, is that 
not classic overbuilding?
    Ms. Walsh. I am not sure which project you are referring 
to, and I would have to defer to the requirements that we work 
out with our customer agency.
    Mr. Diaz-Balart. Well, my understanding is that there is a 
border crossing in Vermont that has, again, less than 40 
crossings per day, and it is foreseen to be built as an eight 
lane border station. And, again, since among the things we are 
talking about is overbuilding and wasting money in 
overbuilding, it seems to me that I don't know how you justify 
eight lanes with less than 40 cars a day.
    Now, you have other border stations already that you run. 
If you have a border station that has six lanes and it has less 
than 40 cars, do you suggest that it go to eight lanes, or is 
that excessive?
    Ms. Walsh. We do build also to accommodate future 
requirements. But in terms of the specific border stations, I 
would have to go back and check and get the Committee the 
information on the number of lanes and whatnot at the various 
border stations.
    Mr. Diaz-Balart. All right. And the other part of my 
question, though, is if there is something planned by the 
stimulus, do you have the ability to exercise your judgment as 
to what makes sense, is it eight lanes, is it six lanes, or do 
you just have to go forward with it and build it, regardless of 
what the need may actually be?
    Ms. Walsh. I didn't hear the last part of your question.
    Mr. Diaz-Balart. Or do you just go forward with it because 
that is what is in the bill, regardless of what the actual need 
may be?
    Ms. Walsh. I think we discuss the requirements at length 
with our customer to make sure that they make sense. We would 
be happy to set up a meeting with you to discuss this issue, if 
you would like.
    Mr. Diaz-Balart. Great. I would like to. I would like to 
find out because, again, what we are trying to do is avoid, 
obviously, unnecessary expenditures.
    Ms. Walsh. Absolutely.
    Mr. Diaz-Balart. On the same vein going now back to the 
courthouses, I know that it has already been discussed a little 
bit, but we had a hearing, the Chairwoman had a hearing 
yesterday, I believe it was yesterday, on this very issue, 
where one of the things that came out and that there was no 
debate on was that the standards as to what the needs for 
future courthouses would be is frankly just plain wrong. It is 
not working. I mean, that was agreed to by everybody.
    And yet the courthouses in the stimulus that are going to 
be built are there because they were using these, frankly, 
erroneous standards. So we know that the need may not be there, 
and I think there is absolute agreement to the fact that those 
standards that were used to determine what the needs were were 
dead wrong, and I mean dead wrong and that we have been 
overbuilding because of that.
    That is what standard, unfortunately, was used for these 
courthouses in the stimulus bill, and yet are we still going to 
move forward? Is the Administration still going to move 
forward, even though now we know, because we have the reports, 
now we know--maybe six months ago we didn't, but now we know 
that those numbers are wrong, are dead wrong, they are way 
overinflated. We may not need those. We know that is the case. 
We have the reports that say that those are wrong.
    And yet is the intention going to be to continue to spend 
money, knowing ahead of time that that money may be, wrongly 
spent because the standards that were used to determine that 
those courthouses were needed were wrong? Again, we know that 
they were wrong now. We didn't know, maybe, particularly when 
the bill was done, but we do know now, so what are we going not 
do about it? What is the Administration going to do about that?
    Ms. Walsh. We are proceeding with our four new courthouse 
projects. I will have to go back and review which standards are 
being applied; off th top of my head I don't know.
    Mr. Diaz-Balart. Well, we do.
    Ms. Walsh. I can't confirm that they are overbuilding.
    Mr. Diaz-Balart. Well, here is the issue that we do know. 
We do know. I am pretty sure that the standards that were used 
were the standards that we know now are wrong. So I just want 
to make it very clear that if the Administration moves forward 
on building those courthouses, it is very important that it is 
public, that there is no secret that the standards that were 
used in order to determine the need are wrong. We know that 
they are wrong now; we have the reports.
    So if one moves forward and spends those, and I believe it 
is several hundred millions dollars, knowing ahead of time that 
those numbers that were used were wrong, we are then purposely 
knowingly moving forward on, frankly, wasteful projects.
    So I would suggest very respectfully that you get back to 
us and you determine what are you going to do to make sure that 
we are not moving forward on projects that we now already know 
are, frankly, not needed or clearly overbuilt, because, 
otherwise, to make it very clear, we would be moving forward, 
the Administration would be moving forward knowing that we 
would be spending several hundred million dollars, whatever the 
actual amount is, when most of it or part of it may not be 
needed, and that would be a gross misuse of taxpayers' money. 
So please get back to us on that, if you would.
    Ms. Walsh. Yes. I will get back to you on that.
    Mr. Diaz-Balart. Thank you, Madam Chairman.
    Ms. Norton. So ordered.
    Ms. Walsh, we recognize that you may not have the answers 
to all of the questions, but the gentleman raises a fair 
question, so we ask you, within 14 days, to get to the 
Chairman, who will share the information with the Ranking 
Member of the Subcommittee so that we can determine whether 
this is the case and, if so, what the Administration is doing 
about it.
    Have you not been heard? I am sorry. I was about to recess 
the hearing.
    Mrs. Schmidt. I just wanted to follow up on a question that 
I asked earlier.
    Ms. Norton. I was supposed to leave here----
    Mrs. Schmidt. It is very quick. It will be very quick. It 
is regarding the border patrol in Vermont. And I am very 
confused as to who is in charge of the design; who is in charge 
of the location; who is in charge of the price that they are 
going to give to the farmer; how did all of that come about.
    So I am asking the entire panel if you would please get 
back to me within 14 days and let me know how you arrived at 
the price, how you arrived at the location, how you arrived at 
the design, how you arrived at the cost of the design, and who 
ultimately is the decision maker in this. And that is all I 
want.
    So I am going to ask each and every panel member if you 
could please get back to me with it so that I have a clear 
understanding. I have been told that the Army Corps of 
Engineers is the one that is handling this and would have the 
responsibility, but now I am being told that they are not. So 
if everybody on the Committee could get back to me on this 
particular project and what their role is and ultimately who 
decided where it is going to go, who decided the design of it, 
who designed the intensity regarding the 40 cars that go there 
every day, the price tag, how you arrived at the figure for the 
farmer, and what kind of tactics and mechanisms you used so 
that the farmer knew that he was getting a fair and just 
treatment. Thank you.
    Ms. Norton. The Chair notes that many of those questions go 
to an agency that I believe is not here, and that is the 
Department of Homeland Security. But I will ask that we attempt 
to get answers to the gentlelady's questions.
    The Chair was called away, which is why you have had 
recurring Chairs. We are going to dismiss this panel and recess 
the hearing until the Chair returns. We will have a second 
panel. I promise you the Chairman is very clear that the second 
panel is very important to this hearing. But this hearing is 
recessed until the call of the Chair or his designate.
    [Recess.]
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will resume its sitting, with apologies to our 
second panel for the delay. Unfortunately, other Committee 
business has intervened, and Wednesdays, as Counsel on the 
Republican side was saying, is our busiest day, and it is. 
Every Member is torn in three different directions, and that is 
what happened here.
    By way of explanation, I had a meeting of the National 
Transportation Safety Advocates organization, who are 
acknowledging Members of the House and Senate for their work in 
support of highway safety. It is something that I have given a 
great deal of my time to over the years I have served here, and 
I was privileged to receive their award. But you can't just 
walk in and say thanks and leave. You do have to say a few 
things, which I did.
    We will begin with Mr. Rainville, introduced by our 
distinguished colleague from the State of Vermont, Mr. Welch.
    Mr. Welch. Thank you'very much, Mr. Chairman.
    I am grateful to you and to Ranking Member Mica for 
inviting a real Vermonter to have a chance to speak to you. You 
are going to hear from Brian Rainville. He lives on a family 
farm, three generations. It is right on the Canadian border and 
he is going to tell you how a project is impacting his farm.
    But the primary goals of the American Recovery and 
Reinvestment Act are to create quality jobs for Americans and 
revive our economy. But equally important, we want that money 
to invest in recovery that has lasting benefit, without doing 
damage along the way. Not every project falls into that 
category, and I think this Committee is demonstrating that it 
is open to listening and learning when a recovery project may 
have some questionable impact.
    So I want to thank you and the Committee on both sides of 
the aisle for inviting a Vermonter here, Brian Rainville, to 
share his story of how this project will impact his family, his 
family farm and our community.
    Thank you'very much, Mr. Chairman.
    Mr. Oberstar. We want to hear the good news. We also want 
to hear those things that didn't go so well or that just didn't 
work out at all. That is the purpose of having hearings. As I 
said, this is the 19th in our series of oversight and 
accountability transparency hearings, during which we have 
heard the difficulties that EPA had early going in implementing 
its portion because there were some quirks in the law that made 
it difficult for them, and many other such circumstances. And 
they are all lessons for the future as we go through our 
authorization bill and the other legislation under the 
jurisdiction of this Committee.
    So Mr. Rainville, welcome. You have our full attention.

 TESTIMONY OF BRIAN RAINVILLE, HIGH SCHOOL TEACHER AND SON OF 
DAIRY FARMERS; PETE BOWE, PRESIDENT, ELLICOTT DREDGES, LLC; TIM 
BURKETT, CHIEF OPERATIONS OFFICER, BIOHABITATS, INC.; AND KEVIN 
WELCH, SENIOR PROJECT MANAGER, PCL CONSTRUCTION SERVICES, INC., 
          REPRESENTING THE U.S. GREEN BUILDING COUNCIL

    Mr. Rainville. Thank you. It is a pretty amazing 
opportunity today for a child and grandchild and great-
grandchild of dairy farmers to be here.
    I live at Morses Line, which has three houses and one 
border port. And we have run into a little problem. Instead of 
looking at need, we have an agency focusing on want. What they 
want to do is spend money. What they need to do is leave us 
alone.
    In 1983, they identified the port at Morses Line for 
closure. They said the traffic volume is low. The geographical 
proximity to other ports, 10 miles west there is one; 10 miles 
east there is another. There is a duplication of services.
    Somehow, Morses Line became a critical port facility in 
lieu of the stimulus bill. We are a little confused. We have a 
traffic rate of 2.5 cars an hour. It is closed for eight hours 
of every day. At midnight, the gate is put down, the sensors 
are turned on, and the hard-working men and women of the Border 
Patrol go to work.
    So we are trying to figure out why this agency is using 
eminent domain as a battering ram to work its way onto our 
farm. And the only conclusion that we can draw is that if they 
don't spend the money by the 30th of September, they lose it. 
In testimony this morning, I heard from someone sitting I think 
at this very microphone and said, well, that is our protocol. I 
am sorry, this is my parents livelihood. And I believe that 
carries more weight. I believe stimulus funds should be 
administered in the same way that medicine is practiced: First 
do no harm.
    Our community was not consulted. We asked for a public 
meeting and we were told that the agency was reaching out to 
the Morses Line community by which they meant my parents, my 
brothers and I sitting around our kitchen table. A public 
hearing was finally held last Saturday and I was thankful tar 
and feathers were nowhere in the room because had they been 
available, 18 th century methods would have been applied to 
well-meaning people who were trying to do their jobs.
    But they never took the step back and asked a fundamental 
question: What does Morses Line need? And a facility designed 
in 1936 for a different time and place isn't necessarily 
relevant in 2010. My family asked representatives very early 
on: How are you justifying this project? And they said: We have 
the money.
    I have never heard that argument before. I spent 10 years 
planning the renovation of my farmhouse. My brother worked for 
two years to plan a 20-foot addition to our sugar house. We had 
a group of people who came in and told us they were going to do 
a 12-month feasibility study and we found out four months later 
that they had designed and were putting to bid a $15.4 million 
facility. Again, the gap is there. What do they need versus 
what do they want?
    My family said clearly this is vital crop land. Their 
environmental assessment said this is a vacant lot. Rather than 
weigh the loss against our farm, they compared all our acreage 
to all the acreage in Franklin County. They talk in the 
environmental report about the most affected businesses. They 
talk about the Dollar Store and Stairs Unlimited. Those aren't 
even in our community.
    At Saturday's public meeting, a young woman stood up and 
said, I don't understand your report because you drew a 
conclusion and then you twisted your data to get there. Retired 
Customs officers who because they are now collecting pensions 
instead of wages and have an opportunity to speak about this 
very project stood up and called their own agency on the carpet 
and said, we know you wanted to close this in 1983. We know 
your moratorium report from last fall identifies precisely this 
type of port for closure, but the project moves on, so much so 
that a mere 12 days or so remain to a 60-day period in which 
Customs and Border Protection told my family that if we didn't 
sell our property voluntarily, they would take it.
    As someone who has taught civics for the last 16 years and 
explained to my students that this is a responsive government, 
a government that cares about rights, a government that 
protects property, I have had increasing difficulty trying to 
explain to well-meaning people who want to spend money why they 
should leave my family alone.
    We have a National Register property. It is a Dairy of 
Distinction. In 1981, this Congress wrote legislation 
forbidding Federal agencies to unnecessarily convert prime 
agricultural soils. But there is money to be spent and the 
project moves forward.
    I find myself every time I see Representatives using 
smaller words and shorter sentences to make the same point, and 
I run out of patience. And I ask this Committee today to 
reprimand that agency. There is no public good at Morses Line. 
There is no reason to spend money at Morses Line when they know 
that a gate and sensors and the Border Patrol keep this Nation 
safe. And to have veiled this project under economic stimulus 
and eminent domain and national security is reprehensible in a 
democratic Nation.
    I am incredibly thankful to the Vermont Congressional 
delegation which asked questions consistently and got us 
answers, and secured a public meeting just last Saturday. But I 
am out of patience with an agency that refused to give us the 
traffic count. My father asked at the first meeting: How many 
vehicles come through Morses Line in a year? And they told us 
we will find out and we will get back to you.
    And we asked and we asked again and we asked again. We 
shouldn't have had to file a Freedom of Information request to 
get that information. If this was a necessary project, the 
agency would have voluntarily given us that. And the mere fact 
that I am the only person talking about this project in front 
of a microphone tells me this agency knows they have done 
wrong. They owe this Committee an apology for the misuse of 
stimulus funds. They owe my family an apology for the manner in 
which they have treated us. They didn't give us the 
environmental report. We found out after it had been available 
for eight days and we were already in a 30 day public comment 
period.
    And just last Saturday, they walked into our town hall 
where local government representatives have been asked hard 
questions for more than 100 years, and they tried the same dog 
and pony show. And when their laptop crashed, taking down their 
presentation explaining that this new facility would make us 
all safer and they had superior technology, I had to believe 
that karma was at work.
    I am out of patience with an agency that says a public need 
is to spend money. We accommodated a hydro line, major 
transmission line into the State of Vermont because it was for 
the public good. We accommodated reconstruction of Route 235 
because it was for the public good. The public good is not the 
spending of stimulus monies.
    Mr. Oberstar. Thank you for your heartfelt, impassioned 
testimony. I would observe, however, your last paragraph saying 
I return to Vermont with hopes of once again being a teacher, 
rather than a lesson. I think you go back being both.
    Mr. Rainville. Thank you.
    Mr. Oberstar. There is a provision of the Constitution 
which I refer to quite regularly, and that is the right of the 
citizens to petition their government for redress of 
grievances. That is the lesson.
    And the sequel to the lesson is that I think we will be 
able to stop this. I will send to Secretary Napolitano this 
portion of the transcript of the hearing, with a recommendation 
that the project be withdrawn; that the funds be deflected to 
some other beneficial pursuit; and reference the participation 
of Congressman Welch, who may join me in the letter if he 
wishes, but I will most certainly send that letter and make 
very strong representations to Secretary Napolitano.
    I will further say that I noticed your observation of a 
mere 80 cows. That used to be a pretty good-size milking herd, 
at least in my District. We had 80 cows fresh and another 80 or 
100 waiting.
    What is your pounds per cow over a year? What are you 
milking, Jerseys? Guernseys?
    Mr. Rainville. It is a Holstein herd.
    Mr. Oberstar. Holstein.
    Mr. Rainville. Yes, and we are hanging on. We have exactly 
the kind of numbers you are talking about. But I have really 
been frustrated that folks from my own Federal Government have 
walked in and told my parents that they have extra property 
they don't need.
    Mr. Oberstar. Those are the people and yours are the family 
values that we proclaim in this Country and that we want to 
preserve. I have seen the same number decline of family farms 
in the southern tier of my district as exurbia has extended its 
rapacious hand north. And dairy farms and roll crop farms, 
instead of pushing up soybeans and corn are pushing up pansies, 
daisies and houses and lawns.
    Customs and Border Patrol used to be a very friendly, 
cooperative agency until it was assumed into the Department of 
Homeland Security, which I voted against. I didn't think we 
needed anything. I said it will grow into a monster. It has. It 
started collecting at a number of Federal Government agencies 
that were doing just fine on their own, into one big family. 
And once you do that, things become bigger. They started with 
134,000, now they are up to 215,000 or 220,000 employees in 
this department.
    We have just approved funding for renovation of a facility 
for their headquarters, St. Elizabeth's Hospital, which I 
recommended to President Bush. I said it is the former home for 
the mentally disabled. This is a crazy idea. I think it needs 
to go there.
    But I will just add to your observation. I was up in Cook 
County, northeastern part of my District, a couple of years ago 
and met with the county sheriff to see how things are going on 
the border with Canada. We have the Pigeon River. He said, I 
have to tell you this story. The Customs and Border Patrol 
decided that they needed training on the northern border for 
their folks in Florida. And so they sent them up with a black 
helicopter.
    And they landed up here in Grand Marais, and then they went 
along 40 miles north to the border with Canada, and they were 
patrolling the Pigeon River and they saw this conveyance 
crossing over from Canada. And when the little canoe got on the 
U.S. shores, they swooped down on the intruders, put black 
masks over their heads and tied their hands behind their back 
and laid them down on the sand and aimed these vicious looking 
weapons at them.
    All the while, the six people dressed in ominous black, 
asked their names and called the names into the county sheriff 
who said, and I won't repeat the exact words, but he said: 
You've just arrested the Chief of the Grand Portage Indian 
Band, who said to them, my people have been crossing over here 
for 2,000 years. If you don't want us to do it, just tell us. 
don't aim guns at us.
    You are a victim. There are other victims, and we will do 
our very best to make sure that there are no further victims, 
and that you get an appropriate apology.
    Mr. Rainville. Thank you. I appreciate that immensely. 
Thank you so much.
    Mr. Bowe?
    Mr. Bowe. Good afternoon, Mr. Chairman.
    Mr. Oberstar. You probably don't have anything quite so 
dramatic to tell us.
    Mr. Bowe. I hope not.
    My name is Peter Bowe. I am President of a company called 
Ellicott Dredges in Baltimore, Maryland. I am here today to 
talk about the impact of the ARRA on the U.S. dredging 
industry. Let me start with a few facts.
    Dredging is essential to maintain the Country s waterways 
and ports. Marine transportation is the most economical and 
environmentally friendly mode of transportation we have. 
Ellicott Dredges is the oldest and largest company in the field 
of making dredging equipment. We got our start in this industry 
when the U.S. Government selected us to build all of the 
dredges used in the original construction of the Panama Canal 
back in 1907.
    Our most important markets are overseas and the most common 
applications for our equipment are infrastructure projects 
other than navigation, for example, in the sand and gravel pits 
that you mentioned in your remarks this morning.
    Having said that, the ARRA did have a meaningful impact not 
only in the dredge contracting industry, but on our company as 
a leading U.S. equipment supplier. Our sales from the stimulus 
were 10 dredges worth over $10 million. These sales sustained 
over 15 jobs out of a workforce of about 200. So that is 
meaningful to as a small business. And I think it is worth 
noting that about half of our manufacturing workforce in 
Baltimore consists of minorities.
    Here is a quick sample of the types of projects the U.S. 
Army Corps of Engineers funded via the ARRA using a new 
Ellicott dredge. In North Carolina, a contractor new to the 
industry bought a $1 million machine for river navigation. In 
Virginia, a contractor new to the industry also bought a $1 
million machine for coastal protection. In our home State of 
Maryland, a minority contractor bought a small dredge for river 
navigation.
    In addition, we had meaningful sales in the domestic power 
and mining industries where the customer's original intention 
was to hire contractors, but they were forced to develop their 
own dredging capacity and buy dredging equipment when the 
traditional contractors were busy doing ARRA work.
    It is our understanding from the Dredging Contractors of 
America that the ARRA has so far funded 100 dredging projects 
in 24 States with a value of over $110 million. It is relevant 
to know that a manufacturer like us relies on a diverse vendor 
base. We are a good example of the ``multiplier effect'' by 
which manufacturers buy parts, components and raw materials 
from many other companies. Most dredges we make and all of the 
dredges used in the above examples use CAT engines. They have 
castings from foundries in Pennsylvania and Michigan; hulls 
from vendors in Wisconsin, Michigan and Indiana, rust belt 
companies.
    I might add that we have at least 15 vendors in Minnesota 
from whom we buy over $100,000 worth of parts and services per 
year. We spend more than half of every sales dollar we receive 
on outside vendors, and almost all are U.S. vendors. So 
clearly, the actual job impact is much greater than just the 
direct impact on our facilities in Wisconsin and Maryland.
    The U.S. marine dredging industry does not operate in a way 
which maximizes our opportunity for the sale of new dredges, 
and here is why. Most of the dredging industry serves the U.S. 
Army Corps of Engineers. For years, the Corps has had a budget 
well under the requirements of approved projects and it is 
always funded on a year by year basis.
    Further, Corps practice is to let jobs with very short 
mobilization periods. As it takes the better part of a year to 
build a new dredge, the long manufacturing process coupled with 
a short contracting process is not conducive to dredge 
contractors investing in new equipment. As a consequence, the 
average age of the dredge fleet in the U.S. is over 20 years, 
which is much older than in other countries.
    The availability of ARRA funding was most welcome in this 
industry. Congress' desire for shovel-ready projects put 
pressure on the Corps and contractors to show that they had the 
capacity to meet the extra demand. The Corps did a great job 
meeting with the industry to plan project roll-outs to maximize 
the use of existing capacity and avoid shortages.
    But the increase in dredging demand did absorb additional 
capacity, and the increase in capacity utilization was 
precisely what created the opportunity for us as an equipment 
supplier. Importantly, the additional funding from the ARRA 
induced contractors new to the industry to come in, in which 
case they obviously needed to buy new dredging equipment and it 
also induced existing contractors to expand.
    The Corps should enjoy long-term benefits from this 
industry expansion, not only in capacity as measured by the 
number of dredges, but also in the number of new competitors. 
The ARRA is responsible for that. New dredging equipment 
introduces newer technology and offers more fuel-efficient 
production.
    All other things being equal, with more contractors bidding 
and additional capacity available, the Government should get 
lower pricing on future jobs than it would otherwise. In just 
one example I cited above, the Virginia project, the low bid, 
which came from a new party to the industry, saved the 
government over $2 million compared to the next low bidder.
    Now, one should ask: What changes could be made on an 
ongoing basis to improve the state of the domestic dredging 
industry and modernize its capacity? And there actually are two 
good answers to this question, both relating to issues now 
pending before Congress.
    The first relates to a proposal supported by a coalition 
called RAMP: Realize America's Maritime Promise. RAMP 
represents a broad spectrum of shippers, ship operators, custom 
brokers, ports and port users. RAMP strongly supports passage 
of H.R. 4844, which seeks to direct that Congress should use 
funds from the Harbor Maintenance Trust Fund--derived from a 
small fee on imports--for their intended purpose, and that is 
funding annual dredging and port-related maintenance costs.
    We believe this bill is necessary because contrary to the 
intentions of that fund, half of the fees generated are in fact 
used to offset the deficit. Using the trust fund as intended 
would give dredging contractors a sounder basis for their long-
term planning and hence the confidence to invest in new 
capacity, and help support the Country's ongoing maritime 
needs.
    Secondly, Congress could pass the Water Resources 
Development Act and include the language in H.R. 4844 which 
will ensure there will be consistent and sufficient funding for 
the Nation s ports and harbors on an annual basis.
    Though it is likely that Ellicott Dredges will remain an 
export-oriented company, it would be terrific if we could 
continue at the higher level of domestic sales we now enjoy. We 
would like to continue our decade-long trend of growing both 
revenues and American jobs.
    Thank you'very much for your time.
    Mr. Oberstar. Thank you for a very splendid statement. I 
will come back to that in a moment.
    I want to hear next from Mr. Burkett.
    Mr. Burkett. Thank you'very much, Mr. Chairman and Members 
of the Committee.
    On behalf of Biohabitats, an ecological restoration firm 
based in Baltimore, I would like to thank you, the Committee, 
two-fold: first, for the opportunity to provide our perspective 
on the value to our business of the American Recovery and 
Reinvestment Act; and secondly, for entrusting our firm with 
the efficient and effective use of those taxpayer funds to 
further the science and practice of water quality improvement 
and habitat enhancement in and around our urban centers.
    Specifically, Biohabitats has been entrusted with advancing 
the completion in this calendar year of six projects receiving 
stimulus funds totaling $3.1 million. Included in this funding, 
Biohabitats is directly providing professional services 
totaling $773,000. These seem like small numbers when we were 
talking about billions earlier this morning, but to a small 
firm like ours, these have a great impact.
    On these projects, there is a direct amount coming to 
Biohabitats, but there is also a balance of funds going to 
survey professionals, restoration contractors for both their 
labor and materials.
    We have acknowledged a weakening in our private sector 
business over the last 18 months, and we really want to 
emphasize the fact that this stimulus work has played a vital 
role for Biohabitats in bridging that gap. The work that we are 
talking about represents about 10 percent of our annual 
revenues, and if you translate that into jobs, that is four to 
five professional staff, engineers, landscape architects, and 
scientists. And then if you want to look at the flow-down from 
that, probably another 10 to 15 in surveyors and contractors 
and operators that are going to be working for us on these 
projects.
    For our clients, this funding is enabling us and them to 
implement green infrastructure measures, practices that we 
believe will provide a cost-effective alternative to a lot of 
the gray infrastructure that is currently in place. And this is 
all to address the growing challenge that we have in terms of 
improving our surface waters such as our rivers, lakes and 
coastal waters.
    Of the six projects that we have been entrusted with, the 
first three are what we call regenerative stormwater conveyance 
projects. They are simply stormwater projects replacing gray 
infrastructure. One is Carriage Hills. This has already been 
designed, constructed and is in place for the Maryland 
Department of the Environment near Annapolis. The second two 
are for the District of Columbia, specifically the Department 
of the Environment at Pope s Branch in Rock Creek, which are 
actually going to be designed and constructed for Federal lands 
within the Park Service.
    The next project is the Wissahickon watershed restoration 
feasibility study, working for the Philadelphia District Corps 
of Engineers. That project is complete at this time. Another 
project which is going to get started in the next month is Bear 
Creek Stream restoration for Cuyahoga County, Ohio for their 
Board of Health. And then finally, a project which will be 
started up in the next two weeks is the Jean Lafitte National 
Historic Park invasive tree and wetland restoration project, 
certainly something that is very timely given the issues that 
are going on down in that area.
    The first of these three projects that I mentioned, the 
regenerative stormwater conveyance, this is really kind of a 
unique blend of stream and wetland restoration techniques that 
are being used to restore ecologically sensitive areas that 
have been impacted by uncontrolled stormwater discharges. RSC 
provides not only the opportunity for safe conveyance of water, 
but also the opportunity to reduce flows, which impact our 
wastewater treatment plants, large estuaries and also improves 
the water quality by naturally filtering that water, allowing 
for biological degradation of that material in the stream and 
wetland-rich soils in those complexes.
    Initial analysis of the RSC projects in the mid-Atlantic 
supports the fundamental contention that these projects, when 
viewed from the perspective of stacked benefits, meaning 
looking at your restored benefits, your restored streams, 
reforestation, and water storage actually yield a multiple 
return on investment four to six times, meaning for every 
dollar you spend, you get four to six back in terms of natural 
capital and services provided.
    If you were to compare these costs in terms of installed, 
they are either at or equivalent to the conveyance costs in 
terms of traditional stormwater conveyance pipes. On this 
basis, we believe that green infrastructure for stormwater 
management yields a true net return on investment for public 
dollars, when considered against the one-time capital 
expenditure for a conveyance which beyond conveyance really 
yields few long-term benefits.
    These projects that we are talking about are going to 
provide the foundation support for technical advances which 
will be shared by other professionals and other public works 
departments to really drive innovation in this area.
    In terms of the projects in Philadelphia and out in Ohio, 
the Wissahickon Creek has long been a scenic and recreational 
waterway for Philadelphians, also a drinking water source. 
Decades of development within the Wissahickon, like many other 
areas, have taken a toll on the ecology, and several segments 
of this creek are actually listed among Pennsylvania s 303(d) 
listing for impaired waters.
    The study that we completed prioritizes restoration within 
the Wissahickon very similar to what was mentioned this morning 
in terms of Cobbs Creek and Pennypack in Philadelphia, to look 
at opportunities to restore areas, implement these initiatives 
throughout the watershed, to improve water quality, improve 
habitat condition for plant, animal and then human communities.
    The stream restoration project out in Ohio is a design-
build stream restoration project for about 1,600 linear feet. 
The overall objectives of the project are to improve water 
quality in stream; improve aquatic and riparian habitat; 
dissipate the stream energy; minimize erosion sedimentation; 
protect existing infrastructure within the project site, in 
this case we have both bridges and road surfaces that are 
impacted; provide stormwater management; and finally to create 
a land lab for the city to use with the Department of Health 
with the school students, providing volunteer activities and 
learning about their ecology.
    And finally, our work in the National Park Service at Jean 
Lafitte is really a hydrologic restoration. This project came 
about from the access channel dredging associated with oil and 
gas production, historically. What happened in this is you have 
created these dredge dykes. It provides a fertile area for 
Chinese tallow, an invasive species to come in and out-compete 
all of the natives. So we are actually doing a two-fold here by 
taking that dredge materials, putting it back in the canals. We 
are going to re-initiate or reconnect the floodplain with the 
wetland area, as well as choking out those invasive species.
    But in conclusion, I would just say from our perspective, 
Biohabitats and our small firm, these projects have been made 
possible by the stimulus funding and that jobs were sustained 
for a small professional services firm which is hoping to 
advance the science of ecological engineering.
    This fact is recognized by our firm and by our public 
sector clients who have been working hard to advance the 
transition from gray infrastructure fixes to green 
infrastructure solutions. These projects will no doubt have a 
ripple effect for each of our clients and their communities, 
and they will be felt for many years to come.
    I thank you for the opportunity to address the Committee.
    Mr. Oberstar. Thank you for a very enlightening and 
uplifting presentation.
    Mr. Welch?
    Mr. Welch. Thank you. On behalf of the U.S. Green Building 
Council and their more than 17,000 organizational members and 
nearly 80 local chapters, I would like to thank Chairman 
Oberstar and Ranking Member Mica for the opportunity to testify 
today.
    My name is Kevin Welch. I am a Senior Project Manager with 
PCL Construction Services in Denver, and if I might add, a 
former resident of Grand Marais.
    PCL is a proud member of the U.S. Green Building Council 
and delivers sustainable construction solutions by using 
methods and materials that minimize harmful effects to the 
people and the environment. And as a result, they reduce the 
building operating and maintenance costs.
    The utilization of sustainable construction by building 
owners such as the GSA results in a safer, more efficient end 
product and ultimately a higher return on investment for 
taxpayers.
    PCL has had a longstanding partnership with the GSA and the 
U.S. Green Building Council and we are proud to be here today 
to talk about our work as part of the Recovery Act.
    As previously mentioned, the Recovery Act provided the GSA 
with $5.5 billion for facility upgrades and new construction 
using high-performing green standards. On behalf of the U.S. 
Green Building Council, I would like to commend the Committee 
and the Administration for your leadership in including these 
provisions in the legislation.
    I know first-hand that these programs are putting Americans 
back to work, and they also send a clear signal that building 
green is a key element in reducing the Federal Government s 
environmental and operating footprint.
    Today, I want to talk about PCL s contribution to this 
effort with our work at the Denver Federal Center. In early 
2007, the GSA awarded a contract to PCL to provide pre-
construction services during the design phase of the Denver 
Federal Center s utility infrastructure replacement program, 
with options for construction and construction management 
services following the completion of the design.
    The infrastructure at the DFC campus had been installed 
nearly 70 years prior and was failing with increasing 
frequency. Due to funding constraints reported by the GSA, the 
construction for the project was postponed in late 2008. As a 
result of the Recovery Act, in February 2009 the Denver Federal 
Center received approximately $45 million to significantly 
improve the aged infrastructure and to increase the overall 
readiness, reliability and sustainability of what is reported 
to be the largest Federal complex in the Western United States.
    Due to ARRA funding, the GSA was able to quickly retrieve 
the design and the project team was able to hit the ground 
running. As such, the Denver Federal Center utility 
infrastructure replacement project was the embodiment of a 
shovel-ready project.
    After confirming its budget and schedule, the GSA 
authorized PCL to proceed with construction in May of 2009. 
Examples of some of the new services include complete 
replacement of the domestic and fire water service system with 
a single more efficient service; a new 500,000 gallon water 
storage tank; and a new pump house with a solar array on the 
roof.
    The project also includes new and rehabilitated sanitary 
sewer services, new and upgraded electrical distribution lines, 
paving, flood drainage, and stormwater collection improvements.
    In total, approximately 21 miles of new utility services 
will be put into place. All told, these improvements, which are 
already 40 percent complete, will significantly reduce the 
campus water consumption and stormwater runoff, while expanding 
the GSA s vision for a more sustainable campus for nearly 6,700 
employees who work there.
    The project is making the Denver Federal Center a more 
efficient place, but also it is putting people back to work. 
Over 98 new and retained jobs have been created, including 17 
onsite PCL staff members with nearly 51,000 man hours reported 
between PCL and our subcontractors in the first quarter of 
2010.
    With the project scheduled for completion in 2012, it is 
estimated that this project will continue to provide new and 
retained jobs at this level for approximately the next two 
years.
    The jobs created and retained as a result of the project 
will necessarily help to stimulate and grow our local economy 
and the direct benefits of these jobs on the employees of PCL 
and our subcontractors who have the opportunity to construct 
this critical project are self-evident in this challenging 
economy.
    I want to thank the Committee for the opportunity to 
discuss our contribution to the Denver Federal Center, and look 
forward to answering any questions that you have.
    Thank you.
    Mr. Oberstar. And thank you, Mr. Welch, also for a very 
illuminating presentation.
    Perhaps, Mr. Rainville, you will be able to go back to your 
family, to your students and tell them while you had a bad 
experience, there are others who had very uplifting experiences 
and beneficial ones, and that because of your presentation 
here, we are going to be able to correct the situation. As we 
call it, correcting the record here, quaintly, in the House.
    Mr. Bowe, you touch very deep strings in my heart when you 
talk about dredging inland waterways, the works of the Corps of 
Engineers. For seven years, it used to be an annual bill of the 
works of the Corps of Engineers. It then became two years, the 
Water Resources Development Act. For seven years, it didn't 
pass the Senate. In two Congresses, it passed the House, but 
didn't pass the Senate. In one Congress, it only got out of our 
Committee, but didn't make it to the Floor because it was clear 
the Senate wasn't going to act on it.
    Then at the beginning of the 110th Congress, I became 
Chairman and Mr. Mica and I got together and said we were going 
to fix that. We were going to make sure that these things work, 
that the legislative process moves ahead. And we took all the 
920 projects that had been reviewed by the Corps and approved 
by the Committee, that had passed the House at least once, and 
re-packaged them all together with new standards requiring 
Members to sign a statement that they had no personal or family 
financial interest; that there was a local sponsor who requests 
the project; that it is within the scope of responsibility of 
the Corps of Engineers.
    And we weeded out those that didn't meet that standard, and 
we brought the bill to Committee; moved it on voice vote from 
Committee; and through the House expeditiously with 370-some 
votes; passed the Senate. We had a 45-minute conference with 
the Senate and sent the bill over to the White House where, 
unfortunately, President Bush vetoed the bill. The veto was 
overridden.
    We had another 378 votes or so margin, so overwhelmingly 
bipartisan, and showed that the Members of Congress have a keen 
interest in the dredging that is necessary for our ports, our 
harbors, with five locks on the Mississippi River that don't 
meet the 1,200 foot standard for one each on the Ohio-Illinois 
River systems; for restoring the wetlands in the Gulf of Mexico 
and eastern Texas, Louisiana, Mississippi, up into Alabama; 
restoring the wetlands of the Everglades in Florida.
    All those are long overdue, urgent, necessary needs, and we 
set them in motion. It would take on the average of $4 billion 
a year to $6 billion a year investment in the Corps to 
accomplish those works, and the budget fell short. But the 
stimulus provided that $4.5 billion incentive to move these 
projects ahead.
    What I liked about your presentation is your reference to 
all the secondary effect of these projects. I have said all 
along it is not just the highway pavement contract, just the 
bridge builder. It is the Ready Mix plant, the asphalt plant, 
the rebar that goes into the concrete; the fence posts, the 
fencing, the I-beams for bridges. Those all have to be provided 
to this project. The sand and gravel pits, I referenced those 
earlier, those were shut down, reopened. People then were 
called back to work.
    And in your case, you referenced companies that provide the 
multiplier effect: the hulls from vendors in Wisconsin, 
Michigan, Indiana; hydraulics from New Jersey; and all U.S.-
based vendors.
    That is the great success story. You also referenced the 
Maritime Administration grants of small shipyards. I did 
summarize that work of MARAD.
    What lessons do you have for us for the future? We are 
getting ready to report another water resources bill. We have 
on the order of 1,100 projects that the Committee staff are now 
refining into final legislative language. But what 
recommendations do you have for us, based on your experience 
with Recovery Act?
    Mr. Bowe. First, let me thank you and Mr. Mica for your 
support. You two obviously get the infrastructure task before 
you. In terms of what we recommended, we do recommend a new 
WRDA bill, as you just mentioned, and also your support of H.R. 
4844, using the Harbor Maintenance Trust Fund fees for their 
intended purpose, which will make a lot of this annual give and 
take go away.
    I understand that Congressman Mica actually just signed on 
to support that in the last day or so, so that is a welcome 
Member of the group of Congressmen and Senators already behind 
it.
    Mr. Oberstar. I have said many times, I have never seen a 
Democratic road or a Republican bridge, but if we work 
together, we can build all American roads and all American 
bridges. And we do that on this Committee almost uniquely in 
the Congress. We march together on issues that are of 
importance, of investment for all America.
    And what you do in the dredging, on the Mississippi River, 
Mrs. Schmidt, if I may just, then I will yield to you, but the 
Mississippi River from northeast Iowa to New Orleans is an 820-
hour round trip for barge traffic. New Orleans is the world's 
most important grain export facility. Grain moves in 
international markets on as little as an eighth of a cent a 
bushel. That 820 hours, that translates to six weeks. Why? 
Because the barge tows are 1,200 feet and the locks are 600 
feet except for Alton, Illinois, which is a 1,200 foot lock.
    So the barge tows come up. They have to be split in half, 
send 600 feet through; the next 600 feet through; then lash 
them together and go all the way down.
    Now, if you look at a map of South America and you see that 
point of Brazil that sticks out in the South Atlantic Ocean. At 
that point is the port of Recife. It is an export facility for 
Brazil. Just below that is the port of Santos, which is a grain 
export facility, agricultural export facility. They ship 
soybeans and processed sugar and other agriculture commodities 
to the same West and East African and Pacific Rim ports that 
our farmers ship to, except they have a 2,500 mile advantage. 
They are that much closer to those ports than the port of New 
Orleans.
    So they have a built-in four-or five-day shipping advantage 
added onto our three-week disadvantage of moving goods down the 
Mississippi River.
    Now, that is an investment in America's productivity. It is 
not just for the barge operators. We benefit for the dredging 
contractors. We benefit for all those who will build the works 
to expand the locks. But it benefits America's farmers and it 
benefits the heartland of America. It benefits the small towns 
of America. We have to make those investments and we got a 
start on it, but we need to do more. And there is more yet to 
come.
    So I will withhold at this point.
    Mrs. Schmidt?
    Mrs. Schmidt. Thank you, and I am just going to be brief. 
It is my understanding that you are going to be sending a 
letter on behalf of Mr. Rainville regarding his issue.
    Mr. Oberstar. Correct, to the Secretary of Homeland 
Security.
    Mrs. Schmidt. I applaud you so much for that. Thank you so 
much.
    And just what I briefly looked over in the testimony 
presented, the stimulus dollars for the most part for projects 
that were in this Committee are working. And to that extent, I 
am glad and I only wish you, and I know you do too, that we 
could get a highway bill so that we could extend this 
investment in America's future.
    Mrs. Schmidt, if it were left up to you and me, it would be 
done.
    Mrs. Schmidt. Bingo.
    Mr. Oberstar. Because I know where you stand.
    Mrs. Schmidt. Exactly. I am going to turn it back over, 
sir. Thank you.
    Mr. Oberstar. Thank you'very much for your support for the 
work of the Committee and for being here today.
    Mr. Burkett, these projects that you referenced, which I 
think are fascinating, the regenerative stormwater conveyance. 
This is sort of the new look in stormwater and in non-
wastewater treatment, isn't it?
    Mr. Burkett. We would like it to be the new look.
    Mr. Oberstar. Well, it is. It is a movement that is 
catching on all across the Country. We have a provision in the 
bill that Representative Schmidt just reference, our 
authorization of the future of surface transportation that will 
apply these principles to the highway program, and use 
regenerative stormwater. There is a huge amount of runoff from 
our Interstate highway system, our local highways and roads 
that carries all the oils and gasoline drippings and the rest 
of the waste on the highway system into ditches that go into 
creeks that go into rivers, and into estuaries eventually.
    We want to stop that. And we have provisions in our bill 
that will provide encouragement to State DOTs to do better 
planning for regenerative stormwater conveyance. What lessons 
have you to share with us for that experience?
    Mr. Burkett. I think probably the largest lesson to learn 
is the further we can move up into the watersheds to make these 
things happen, the better off we will all be. In terms of just 
trying to great the Chesapeake Bay or any of these larger 
estuaries, at the point or at the end pipe is not the solution. 
We need to work further up into the watersheds. We need to 
recognize that as our population centers grow, so does the 
amount of impervious area, which contributes to stormwater.
    So we need to look at ways to manage that. It has impacts 
from the State highway system to the wastewater treatment 
systems, as they handle combined sewer overflows, the more we 
can infiltrate that water near the source.
    Projects like Mr. Welch was talking about, where you are 
looking outside the building envelope at not large centralized 
stormwater facilities, but facilities that infiltrate and push 
people towards these what have been called non-conventional 
techniques, to consider these as conventional techniques as we 
move forward.
    There is a lot of very interested parties out there, a lot 
of progressive public works departments that have put their 
necks out there and are doing some really great things in terms 
of what I would call the research and development of the next 
stage of stormwater management.
    Mr. Oberstar. Your testimony also references not only the 
professional staff, engineers, landscape architects, scientists 
in your firm, but those beyond the firm who have also 
benefitted, equipment operators, laborers. How far out is the 
reach of the stimulated jobs?
    Mr. Burkett. The reach for each one of these projects where 
we are doing them on a design-build basis, you have the 
equipment operators, heavy equipment operators that are out 
there on the piece of equipment. You have lots of materials 
whether it be sand and gravel pits, quarries where a lot of the 
materials are being harvested.
    The reach is far and wide. Surveyors from the architecture 
and engineering industry, that is one industry that has been 
decimated over the last six to 12 to 18 months, where no 
construction was happening. Surveyors were letting crews go 
left and right.
    So each one of these projects requires surveys. It is the 
first step of the process. Every one of the projects I 
mentioned has already had a surveyor out there. They have 
already done one, two, three weeks for the survey work. So we 
know we have crews on the ground already, even in doing that 
work.
    Mr. Oberstar. Those architects and engineers are the 
harbingers of the future. The Associated General Contractors 
have been in town this week, along with others in the 
Construction Coalition. I am sure Mrs. Schmidt has been 
visited, as I and other Members have. And the Associated 
General Contractors say they look to the workload of the 
architects and engineers as an indicator of where there 
business may be going out into the future. And if they are 
doing well, they know that bids will be coming on the design 
work they will have completed.
    You said choking out the invasive species. What specific 
projects have you undertaken with your stormwater conveyance 
regenerative projects?
    Mr. Burkett. Well, actually if you look at the regenerative 
stormwater conveyance project, any restoration project that we 
do always involves an invasives management component. Anytime 
you disturb soil, you disturb the seeds and oftentimes you have 
to give the native plants an opportunity to out-compete the 
non-native plants.
    Why is that? Well, your natives are the ones that are 
drought-tolerant. They are the ones that are pest-resistant. 
And therefore for the future of a project in terms of its 
operation and maintenance expense, you don't spend you money on 
herbicides. You don't spend your money chasing after a problem 
that you created during construction.
    So each one of these projects always has an invasives 
management and O&M piece after it for a few years to maintain 
the project. In terms of the Jean Lafitte project in 
particular, there is one where you are trying to reinstitute a 
hydrologic regime, a wetland, a true functioning wetland where 
because of the dredge that was done, it is essentially de-
watered those wetlands. This is an opportunity to essentially 
rehydrate those. And once you have done that, the native plants 
will have an opportunity to out-compete the non-native plants.
    Mr. Oberstar. That is a wonderful, uplifting story, and we 
all through the Great Lakes, Ohio is a Great Lake State, have 
the invasive species not only the lamprey eel, but the European 
round goby and the zebra mussels and spiny echinoderm, and a 
host of those; but the purple loosestrife and others of that 
nature that spread like wildfire because they have no native 
plant to crowd them out and stop them from spreading.
    So lessons learned from your experience are very valuable.
    Mr. Burkett. We had the good fortune yesterday to actually 
be in Buffalo kicking off our work as a small business set-
aside for the Corps of Engineers out of the Buffalo District 
under the Great Lakes Restoration Initiative. So there are some 
real and tangible evidence in the coming months to push back 
against the invasives, to restore our ecology of the Great 
Lakes.
    Mr. Oberstar. There is a final question I have about the 
small business setaside, which is something I insisted on that 
we assure that small businesses have a fair opportunity to 
compete. Did you find any difficulty in working with the Corps 
of Engineers on your small business set-aside status?
    Mr. Burkett. No, that was the kickoff for a new award that 
we just had. Was the process competitive among the small 
business setasides? Yes, it was very competitive. And so there 
were a lot of small businesses available to pursue that work.
    Had we gone ahead and had to compete against the largest of 
the large firms, we would have had a difficult time getting a 
toehold to get in there to work with the Corps. We also are 
working with the Philadelphia District with a small business 
setaside, and I would hope from their perspective, they have 
been very happy with the work that we have done for them.
    And our firm, by its very nature, we try to push our 
clients to be innovative, to push ourselves beyond what we see 
right in front of us to what is ahead of us.
    Mr. Oberstar. As a dairy farmer, Mr. Rainville knows very 
well how vitally important water is for agriculture. And all 
the water there ever was, ever will be, is with us today. We 
are not making any new water. And it is our responsibility to 
husband it carefully. Every day over the continental United 
States, we receive 1.2 trillion gallons of moisture. Only about 
60 billion of it comes down in moisture. In the end, after 
runoff and impervious pavements that contribute to the 
increased runoff, it is only about 60 billion gallons available 
for surface water every day. That is all you are going to have 
to work with and manage, filter through or run off into the 
lakes and rivers. Protecting those resources in the way that 
you are doing with regenerative stormwater conveyances is 
vitally important for the future.
    Mr. Welch, in your retrofitting of Federal facilities, have 
you had to present, or have the agencies done this, a lifetime 
cost analysis of installation of solar facilities?
    Mr. Welch. I believe that they have done an analysis. The 
GSA has done an analysis for that, or their designers, for our 
project. The solar panel that was installed on the pump house 
was one to determine the payback of solar panels. It is about 
100 square feet, so it is a very small pilot program.
    Mr. Oberstar. Earlier in the hearing, Mr. Schauer from 
Michigan referenced the solar issue and expressed his concern 
that a good deal of the production capability for solar panels, 
though invented here, produced initially in America, has 
increasingly gone offshore. Have you found difficulty in 
complying with the Buy America provisions of the Recovery Act?
    Mr. Welch. There is a considerable amount of due diligence 
that has to go in place to ensure that solar panels are in fact 
compliant with the Buy America Act, and that due diligence has 
been put into place on this project, and they have done a great 
deal of research and commitment to make sure that it is in 
compliance down to the fasteners themselves.
    Mr. Oberstar. You have a splendid story about the Denver 
Federal Center. I would just observe my first term in Congress, 
1975 and 1976, there was a hearing in this Committee room by 
the Chair of the Subcommittee on Public Buildings, as it was 
called then, and now it has a much longer name, Economic 
Development and so on, by the General Services Administration 
and the Sheet Metal Workers Union on a study that they had 
commissioned of the benefits of retrofitting Federal civilian 
office space.
    The two-volume study showed that you could generate 135,000 
sheet metal worker jobs alone, not including the electrical 
workers and carpenters and others who would also be required 
for solar panel installation. And that an investment of $175 
million a year by the Federal Government to buy from the 
private sector the equipment needed to retrofit Federal 
civilian office space would bring down over a five-year period 
the cost of electricity from solar panels from $1.75 a kilowatt 
hour to something in the range of 15 cents a kilowatt hour, 
comparable to the seven cents kilowatt hour from the investor-
owned utilities.
    I thought that was a splendid way to save energy, to reduce 
the cost of electricity to the Federal Government spends. So I 
introduced the bill to do exactly these things over a three-
year period, $175 million a year. Jimmy Carter signed the bill 
into law. My colleague over in the Senate, Hubert Humphrey at 
the time, moved it through that body. And he put the money in 
his budget, then he lost the election and President Reagan just 
zeroed out the funding for all alternative energy programs.
    But then time passes and I became Chairman of the Committee 
in 2007. So this is going to be the first thing we are going to 
do. We have jurisdiction over 367 million square feet of 
Federal civilian office space. The electricity bill is $500 
million a year. If we cut that even 10 percent, that is a 
savings to the taxpayer. If we cut it even more, that reduces 
the amount of coal we have to burn to produce electricity. We 
can run all the lights in this room, all the lights in this 
whole building with solar panels on the Rayburn Building, and 
we are moving in that direction to do that.
    And so I directed the Committee staff to go back and dig up 
my bill that I had introduced years ago that was signed into 
law, and they found it. And they found my testimony before the 
Committee still in Committee files. So I said, all right, we 
are going to do this with the Department of Energy. We reported 
the bill, take funds out of the Public Building Fund, and 
retrofit the Department of Energy headquarters. So every day 
since September of 2007, the Department of Energy roof is 
generating 2.5 megawatts of electricity.
    Now, we can do that and apply to buildings all over 
America, and you have started to do at the Denver Federal 
Courthouse. Then we will make a significant contribution. And 
maybe it will cost a little bit more at the outset, but in the 
long run, our children will be there to thank us for doing our 
part to save the environment and not burn as much carbon, put 
that carbon in the air that stays there for 100,000 years.
    Mr. Welch. I would agree.
    Mr. Oberstar. Mrs. Schmidt, do you have any comments?
    Mrs. Schmidt. I have a question for the panel.
    Mr. Burkett, a couple of just small questions.
    Mr. Burkett. Sure.
    Mrs. Schmidt. I know that with the whole Recovery Act, you 
have to do some paperwork. You have to have an accountability 
to the EPA and perhaps other agencies as well, including job 
reporting verification, et cetera.
    My question is two-fold. I know sometimes when you get a 
whole bunch of paper, it seems to be overwhelming and you don't 
know what to do with it. Were you given any guidance on how 
they wanted these forms to be filled out? Did you feel that you 
were overburdened with them or that they were just necessary 
and OK on their own? Just a little feedback on the personal 
experience.
    Mr. Burkett. I would say that now that we have six 
projects, the first of which came through the Maryland 
Department of the Environment, they were challenged at that 
point to even understand what their own reporting requirements 
were.
    As we have moved through this process, three, six, nine 
months now, everybody has refined their processes. The Corps of 
Engineers, the first time we all went, we kind of felt like we 
all went through the process together. The second time, they 
provided some refinements. The third time, we actually worked 
back and forth. And so now we are at a point where it actually 
is fairly smooth.
    DC government for those two projects, they have an online 
system that they have set up. They have their own reporting 
requirements as well. So we are reporting not only what is 
required under the stimulus funding, but we are also requiring 
things that the District of Columbia wants in terms of the 
accountability for their projects.
    When you have agencies such as Cuyahoga County Board of 
Health, I think this is somewhat daunting for them. This is one 
or maybe a handful of projects for them. And what they are 
actually doing is looking to us, having been through the 
process now, to help them to understand what the reporting 
requirements are.
    There also is the other level below us in terms of our sub-
consultants and having to do a little training of our sub-
consultants. For the District of Columbia, they want them to 
report their information directly. Others are asking that that 
information be rolled up through us and reported in our 
reporting, either on a monthly or on a quarterly basis.
    So it is really improving. The larger the entity, the more 
sophisticated they are. The smaller the entity, they are a 
little bit in awe at first, but they know that this is a worthy 
project. They want to go through with it. They are willing to 
put up with it as well. So that is the qualitative answer to 
the question.
    Mrs. Schmidt. To follow up, how could we make it better for 
you in reporting? Would videos explaining what different 
agencies want help? And do we provide that now? And if not, 
maybe we could?
    Mr. Burkett. On this side, it seems like a lot of that, 
there have been some basic tenets handed out to each one of the 
agencies that are distributing these funds. And so they have 
kind of been left to their own devices as to how to do this. I 
am sure that you probably could go out there and find some best 
practices, some entities that are doing it very cleanly, 
easily, and try to create a training process for others or 
maybe even the information packet for them, to say here is how 
you can set up your own system. That might create a little more 
uniformity.
    With the Corps of Engineers, they are a very process-driven 
organization and so when we filled out the information, they 
would have little drop-downs. Those drop-downs would have 100 
selections. And so what we were doing is going back to the 
project managers at the Corps and saying: What do you want us 
to fill out right here?
    And so the iterations of that process, now the drop-downs 
are 30 instead of 100, and we know where we are supposed to 
populate that information.
    So I am sure that as we get through this process, there are 
certainly some best practices that you are seeing in terms of 
the reporting that could be filtered out to others, because I 
know they would welcome the information.
    Mrs. Schmidt. Thank you.
    Does anybody else on the panel want to add anything to 
that?
    Mr. Bowe. It is Peter Bowe here. I heard some comments 
about Buy America. I would like the Committee and Congress to 
reflect on the issue that the President is promoting something 
called the National Export Initiative. He has introduced 
legislation, or actually he is committed to a process to double 
the exports from the U.S. in the next five years and create 2 
million jobs.
    Now, the essence of exporting is you have to have two sides 
to a transaction, a buyer and a seller, and hopefully we are 
talking about American sellers. And I hope that the Committee 
exercises caution with respect to how other parties outside the 
U.S. have read Buy America.
    I might add, our company is selling infrastructure 
equipment. We sell to Canadian governmental entities in 
competition with Canadian suppliers. We have had great success 
doing that. And we do hear from our customers overseas. We do 
more business overseas than we do in the States. People ask us: 
Are you keeping us out?
    I don't control that, naturally, but we do very much want a 
two-way street with all of the partners that are willing to 
deal with us fairly. And certainly the Canadians and Mexicans 
are part of NAFTA, so I don't understand all the implications 
of Buy America because we are an exporter, but we do hear 
feedback from our partners overseas.
    Thank you.
    Mr. Oberstar. Thank you'very much for that question, and 
for your thoughtful response. I think that is important for us 
to keep in mind, particularly with Canada, where we have so 
much of a common market. From my District, we export iron ore 
to the former Stelco, Steel Company of Canada in Hamilton, 
Ontario. Now, that plant has been acquired by U.S. Steel. So 
Minnesota ore goes to Canada to make steel in Canada for a 
company owned by a U.S. steelmaker. And when the product they 
produce then comes to the border, is that Canadian or is it 
American?
    The workers in the iron ore mine in Minnesota are organized 
by the United Steelworkers Union. Those at the plant in 
Hamilton, Ontario are organized by the Canadian branch of the 
United Steelworkers Union. So is this a foreign product or is 
it a domestic product?
    We have so much exchange. Where there are no unfair 
practices, where there is no government subsidy of the cost of 
production as the Japanese are so wont to do with the Bank of 
Japan totally subsidizing products, giving export incentives 
and eventually discounting the costs so that it is practically 
nothing to the Japanese steel producer. That is not fair. We 
should not play in that market by Marquis of Queensberry rules 
when the rest of them are using black belt karate on us. But 
where the field is fair, the market ought to be open.
    But there was a great feeling, as Mrs. Schmidt will 
remember, when the stimulus bill came to the House floor, these 
are U.S. taxpayer dollars. The purpose is to create jobs for 
Americans. We want to be sure that American jobs are funded by 
these projects.
    And there were some problems early on with the State 
Revolving Loan Fund, SRF, of the EPA. There are some pumps that 
simply weren't built in America, but only built in Canada. And 
eventually, there are provisions under the Act, under the basic 
underlying law, not just the Stimulus Act, that allow for 
exceptions and for acquisition from foreign sources of products 
not readily available or not produced at home.
    There is another situation where to meet the standard of 
treatment of wastewater, ultraviolet application was required. 
Municipal wastewater treatment facilities said, well, that 
doesn't exist in America. We don't have anything here, so how 
can we comply? And EPA didn't know what to do. I said stand 
firm. Something will happen.
    And a company in Minnesota that makes ultraviolet treatment 
for air intake said we can adapt our equipment to wastewater. 
They did and that resulted in a company now with 120 jobs, 
producing equipment for ultraviolet treatment of wastewater 
works.
    It is a complicated issue. It is one that we have to 
address, think about, and you raised a very thoughtful 
question. It is a two-way street and we will continue working 
on this issue and learning the lessons from this experience.
    You have all been wonderful, instructive, informative 
witnesses, and I am grateful for your participation today, and 
thank you'very much for your patience throughout this day with 
that long recess that we had.
    But as you think further on your testimony today and on the 
experience, give us your further thoughts. We greatly welcome 
your contribution.
    Mrs. Schmidt?
    Mrs. Schmidt. Thank you.
    Mr. Oberstar. No further comments.
    With an acknowledgment of our marathoner, by the way, she 
is lean and trim because she runs marathons.
    Mrs. Schmidt. But I haven't done Vermont yet. I need to.
    [Laughter.]
    Mr. Oberstar. OK.
    Thank you'very much.
    The Committee is adjourned.
    [Whereupon, at 3:01 p.m., the Committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 56726.095
    
    [GRAPHIC] [TIFF OMITTED] 56726.096
    
    [GRAPHIC] [TIFF OMITTED] 56726.097
    
    [GRAPHIC] [TIFF OMITTED] 56726.098
    
    [GRAPHIC] [TIFF OMITTED] 56726.099
    
    [GRAPHIC] [TIFF OMITTED] 56726.100
    
    [GRAPHIC] [TIFF OMITTED] 56726.101
    
    [GRAPHIC] [TIFF OMITTED] 56726.102
    
    [GRAPHIC] [TIFF OMITTED] 56726.103
    
    [GRAPHIC] [TIFF OMITTED] 56726.104
    
    [GRAPHIC] [TIFF OMITTED] 56726.105
    
    [GRAPHIC] [TIFF OMITTED] 56726.106
    
    [GRAPHIC] [TIFF OMITTED] 56726.107
    
    [GRAPHIC] [TIFF OMITTED] 56726.108
    
    [GRAPHIC] [TIFF OMITTED] 56726.109
    
    [GRAPHIC] [TIFF OMITTED] 56726.110
    
    [GRAPHIC] [TIFF OMITTED] 56726.111
    
    [GRAPHIC] [TIFF OMITTED] 56726.112
    
    [GRAPHIC] [TIFF OMITTED] 56726.113
    
    [GRAPHIC] [TIFF OMITTED] 56726.114
    
    [GRAPHIC] [TIFF OMITTED] 56726.115
    
    [GRAPHIC] [TIFF OMITTED] 56726.116
    
    [GRAPHIC] [TIFF OMITTED] 56726.117
    
    [GRAPHIC] [TIFF OMITTED] 56726.118
    
    [GRAPHIC] [TIFF OMITTED] 56726.119
    
    [GRAPHIC] [TIFF OMITTED] 56726.120
    
    [GRAPHIC] [TIFF OMITTED] 56726.121
    
    [GRAPHIC] [TIFF OMITTED] 56726.122
    
    [GRAPHIC] [TIFF OMITTED] 56726.123
    
    [GRAPHIC] [TIFF OMITTED] 56726.124
    
    [GRAPHIC] [TIFF OMITTED] 56726.125
    
    [GRAPHIC] [TIFF OMITTED] 56726.126
    
    [GRAPHIC] [TIFF OMITTED] 56726.127
    
    [GRAPHIC] [TIFF OMITTED] 56726.128
    
    [GRAPHIC] [TIFF OMITTED] 56726.129
    
    [GRAPHIC] [TIFF OMITTED] 56726.130
    
    [GRAPHIC] [TIFF OMITTED] 56726.131
    
    [GRAPHIC] [TIFF OMITTED] 56726.132
    
    [GRAPHIC] [TIFF OMITTED] 56726.133
    
    [GRAPHIC] [TIFF OMITTED] 56726.134
    
    [GRAPHIC] [TIFF OMITTED] 56726.135
    
    [GRAPHIC] [TIFF OMITTED] 56726.136
    
    [GRAPHIC] [TIFF OMITTED] 56726.137
    
    [GRAPHIC] [TIFF OMITTED] 56726.138
    
    [GRAPHIC] [TIFF OMITTED] 56726.139
    
    [GRAPHIC] [TIFF OMITTED] 56726.140
    
    [GRAPHIC] [TIFF OMITTED] 56726.141
    
    [GRAPHIC] [TIFF OMITTED] 56726.142
    
    [GRAPHIC] [TIFF OMITTED] 56726.143
    
    [GRAPHIC] [TIFF OMITTED] 56726.144
    
    [GRAPHIC] [TIFF OMITTED] 56726.145
    
    [GRAPHIC] [TIFF OMITTED] 56726.146
    
    [GRAPHIC] [TIFF OMITTED] 56726.147
    
    [GRAPHIC] [TIFF OMITTED] 56726.148
    
    [GRAPHIC] [TIFF OMITTED] 56726.149
    
    [GRAPHIC] [TIFF OMITTED] 56726.150
    
    [GRAPHIC] [TIFF OMITTED] 56726.151
    
    [GRAPHIC] [TIFF OMITTED] 56726.152
    
    [GRAPHIC] [TIFF OMITTED] 56726.153
    
    [GRAPHIC] [TIFF OMITTED] 56726.154
    
    [GRAPHIC] [TIFF OMITTED] 56726.155
    
    [GRAPHIC] [TIFF OMITTED] 56726.156
    
    [GRAPHIC] [TIFF OMITTED] 56726.157
    
    [GRAPHIC] [TIFF OMITTED] 56726.158
    
    [GRAPHIC] [TIFF OMITTED] 56726.159
    
    [GRAPHIC] [TIFF OMITTED] 56726.160
    
    [GRAPHIC] [TIFF OMITTED] 56726.161
    
    [GRAPHIC] [TIFF OMITTED] 56726.162
    
    [GRAPHIC] [TIFF OMITTED] 56726.163
    
    [GRAPHIC] [TIFF OMITTED] 56726.164
    
    [GRAPHIC] [TIFF OMITTED] 56726.165
    
    [GRAPHIC] [TIFF OMITTED] 56726.166
    
    [GRAPHIC] [TIFF OMITTED] 56726.167
    
    [GRAPHIC] [TIFF OMITTED] 56726.168
    
    [GRAPHIC] [TIFF OMITTED] 56726.169
    
    [GRAPHIC] [TIFF OMITTED] 56726.170
    
    [GRAPHIC] [TIFF OMITTED] 56726.171
    
    [GRAPHIC] [TIFF OMITTED] 56726.172
    
    [GRAPHIC] [TIFF OMITTED] 56726.173
    
    [GRAPHIC] [TIFF OMITTED] 56726.174
    
    [GRAPHIC] [TIFF OMITTED] 56726.175
    
    [GRAPHIC] [TIFF OMITTED] 56726.176
    
    [GRAPHIC] [TIFF OMITTED] 56726.177
    
    [GRAPHIC] [TIFF OMITTED] 56726.178
    
    [GRAPHIC] [TIFF OMITTED] 56726.179
    
    [GRAPHIC] [TIFF OMITTED] 56726.180
    
    [GRAPHIC] [TIFF OMITTED] 56726.181
    
    [GRAPHIC] [TIFF OMITTED] 56726.182
    
    [GRAPHIC] [TIFF OMITTED] 56726.183
    
    [GRAPHIC] [TIFF OMITTED] 56726.184
    
    [GRAPHIC] [TIFF OMITTED] 56726.185
    
    [GRAPHIC] [TIFF OMITTED] 56726.186
    
    [GRAPHIC] [TIFF OMITTED] 56726.187
    
    [GRAPHIC] [TIFF OMITTED] 56726.188
    
    [GRAPHIC] [TIFF OMITTED] 56726.189
    
    [GRAPHIC] [TIFF OMITTED] 56726.190
    
    [GRAPHIC] [TIFF OMITTED] 56726.191
    
    [GRAPHIC] [TIFF OMITTED] 56726.192
    
    [GRAPHIC] [TIFF OMITTED] 56726.193
    
    [GRAPHIC] [TIFF OMITTED] 56726.194
    
    [GRAPHIC] [TIFF OMITTED] 56726.195
    
    [GRAPHIC] [TIFF OMITTED] 56726.196
    
    [GRAPHIC] [TIFF OMITTED] 56726.197
    
    [GRAPHIC] [TIFF OMITTED] 56726.198
    
    [GRAPHIC] [TIFF OMITTED] 56726.199
    
    [GRAPHIC] [TIFF OMITTED] 56726.200
    
    [GRAPHIC] [TIFF OMITTED] 56726.201
    
    [GRAPHIC] [TIFF OMITTED] 56726.202
    
    [GRAPHIC] [TIFF OMITTED] 56726.203
    
    [GRAPHIC] [TIFF OMITTED] 56726.204
    
    [GRAPHIC] [TIFF OMITTED] 56726.205
    
    [GRAPHIC] [TIFF OMITTED] 56726.206
    
    [GRAPHIC] [TIFF OMITTED] 56726.207
    
    [GRAPHIC] [TIFF OMITTED] 56726.208
    
    [GRAPHIC] [TIFF OMITTED] 56726.209
    
    [GRAPHIC] [TIFF OMITTED] 56726.210
    
    [GRAPHIC] [TIFF OMITTED] 56726.211
    
    [GRAPHIC] [TIFF OMITTED] 56726.212
    
    [GRAPHIC] [TIFF OMITTED] 56726.213
    
    [GRAPHIC] [TIFF OMITTED] 56726.214
    
    [GRAPHIC] [TIFF OMITTED] 56726.215
    
    [GRAPHIC] [TIFF OMITTED] 56726.216
    
    [GRAPHIC] [TIFF OMITTED] 56726.217
    
    [GRAPHIC] [TIFF OMITTED] 56726.218
    
    [GRAPHIC] [TIFF OMITTED] 56726.219
    
    [GRAPHIC] [TIFF OMITTED] 56726.220
    
    [GRAPHIC] [TIFF OMITTED] 56726.221
    
    [GRAPHIC] [TIFF OMITTED] 56726.222
    
    [GRAPHIC] [TIFF OMITTED] 56726.223
    
    [GRAPHIC] [TIFF OMITTED] 56726.224
    
    [GRAPHIC] [TIFF OMITTED] 56726.225
    
    [GRAPHIC] [TIFF OMITTED] 56726.226
    
    [GRAPHIC] [TIFF OMITTED] 56726.227
    
    [GRAPHIC] [TIFF OMITTED] 56726.228
    
    [GRAPHIC] [TIFF OMITTED] 56726.229
    
    [GRAPHIC] [TIFF OMITTED] 56726.230
    
    [GRAPHIC] [TIFF OMITTED] 56726.231
    
    [GRAPHIC] [TIFF OMITTED] 56726.232
    
    [GRAPHIC] [TIFF OMITTED] 56726.233
    
    [GRAPHIC] [TIFF OMITTED] 56726.234
    
    [GRAPHIC] [TIFF OMITTED] 56726.235
    
    [GRAPHIC] [TIFF OMITTED] 56726.236
    
                                    

</pre></body></html>
